<html>
<title> - NORTH KOREA'S NUCLEAR AND MISSILE TESTS AND THE SIX-PARTY TALKS: WHERE DO WE GO FROM HERE?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                NORTH KOREA'S NUCLEAR AND MISSILE TESTS
           AND THE SIX-PARTY TALKS: WHERE DO WE GO FROM HERE?

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2009

                               __________

                           Serial No. 111-40

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
50-507                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d5a4d527d5e484e495558514d135e525013">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York
               Lisa Williams, Subcommittee Staff Director
           Daniel Bob, Subcommittee Professional Staff Member
             Nien Su, Republican Professional Staff Member
                       Vili Lei, Staff Associate

                                 ------                                

         Subcommittee on Terrorism, Nonproliferation and Trade

                   BRAD SHERMAN, California, Chairman
GERALD E. CONNOLLY, Virginia         EDWARD R. ROYCE, California
DAVID SCOTT, Georgia                 TED POE, Texas
DIANE E. WATSON, California          DONALD A. MANZULLO, Illinois
MICHAEL E. McMAHON, New York         JOHN BOOZMAN, Arkansas
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
RON KLEIN, Florida
               Don MacDonald, Subcommittee Staff Director
          John Brodtke, Subcommittee Professional Staff Member
            Tom Sheehy, Republican Professional Staff Member
             Isidro Mariscal, Subcommittee Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Selig S. Harrison, Director of the Asia Program, The Center 
  for International Policy.......................................    15
The Honorable Thomas C. Hubbard, Senior Director, McLarty 
  Associates (former Ambassador to the Republics of Korea, the 
  Philippines and Palau).........................................    21
Mr. Scott Snyder, Director, Center for U.S.-Korea Policy, Senior 
  Associate, International Relations, The Asia Foundation........    27
Mr. Richard C. Bush III, Director, Center for Northeast Asian 
  Policy Studies, Senior Fellow, Brookings Institution (former 
  National Intelligence Officer for East Asia)...................    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     4
The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois: Prepared statement.................    13
Mr. Selig S. Harrison: Prepared statement........................    18
The Honorable Thomas C. Hubbard: Prepared statement..............    25
Mr. Scott Snyder: Prepared statement.............................    29
Mr. Richard C. Bush III: Prepared statement......................    38

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    74
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    75
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................    78
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    81
The Honorable Michael E. McMahon, a Representative in Congress 
  from the State of New York: Prepared statement.................    83


NORTH KOREA'S NUCLEAR AND MISSILE TESTS AND THE SIX-PARTY TALKS: WHERE 
                          DO WE GO FROM HERE?

                              ----------                              


                        WEDNESDAY, JUNE 17, 2009

      House of Representatives,            
      Subcommittee on Asia, the Pacific            
                    and the Global Environment,            
                         Subcommittee on Terrorism,        
                            Nonproliferation and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:04 a.m. in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the Subcommittee on Asia, the Pacific 
and the Global Environment) presiding.
    Mr. Faleomavaega. The hearing will come to order. This is a 
joint hearing of the House Foreign Affairs Subcommittees on 
Asia, the Pacific and the Global Environment, and also the 
Subcommittee on Terrorism, Nonproliferation and Trade. We 
certainly welcome our witnesses this morning, and also members 
of the public for joining us at this important hearing. My co-
chair is not here at the moment, but I am going to go ahead and 
give my opening statement. I am glad to see my colleague and 
friend from California who is the ranking member on the 
Subcommittee on Terrorism, Nonproliferation and Trade.
    On February 12 of this year, this subcommittee held a 
hearing on the challenges presented by North Korea, and how the 
Obama administration might remake United States policy toward 
Pyongyang. Unfortunately, in the ensuing 4 months, North Korea 
has taken a series of actions that are as provocative as any we 
have seen in decades. How we respond to those actions is the 
subject of today's hearing.
    As we meet this morning, President Lee Myung-bak is winding 
up his successful 3-day visit to the United States. His summit 
meeting with President Obama and his meetings here on Capitol 
Hill demonstrated that the U.S.-ROK alliance remains as strong 
and vital as ever in promoting peace, stability and prosperity 
in Northeast Asia and beyond. The President's visit also 
reconfirmed our two countries' longstanding commitment to 
working as closely as possible with one another, along with our 
other allies and partners, in dealing with Pyongyang's 
increasingly provocative actions, which are causing so much 
tension on the Korean Peninsula.
    When viewed in the context of the past 20 years, these 
recent North Korean actions have come in unusually rapid 
succession. Just before our last hearing, on January 30th, 
Korea suspended or nullified all major inter-Korean agreements, 
including the armistice, which has maintained peace between 
North and South Korea since 1953. On March 19, Pyongyang 
arrested two American journalists, Laura Ling and Euna Lee, who 
were working near the border between China and North Korea. 
Pyongyang then sentenced them to 12 years in prison labor camp 
for what they referred to as ``grave crimes.'' On April 5, 
defying appeals by the international community and a series of 
U.N. resolutions, North Korea launched a long-range missile. 
The United Nations Security Council responded by issuing a 
Presidential Statement of Condemnation. Citing that Statement, 
Pyongyang promptly announced its withdrawal from the Six-Party 
Talks.
    A day later, North Korea expelled IAEA inspectors from the 
Yongbyon nuclear facility, and by the end of April, North Korea 
declared that it would once again produce plutonium and 
weaponize all of its fissile material. A month later, North 
Korea raised the stakes even higher by conducting its second 
nuclear test. By the next day, Pyongyang fired three short-
range missiles. Last Friday, the Security Council responded to 
North Korea's actions by unanimously passing Resolution 1874, 
which condemned Pyongyang's nuclear tests in the strongest 
terms.
    It also tightened sanctions to block Pyongyang's nuclear, 
missile and proliferation activities and to widen the ban on 
the country's arms exports and imports. In addition, the 
resolution called on United Nations member states to inspect 
and destroy all banned cargo to and from North Korea, whether 
on the high seas, at seaports or airports, if reasonable 
grounds existed to suspect violations. As United Nations 
Ambassador Susan Rice said, ``These sanctions constitute a very 
robust, tough regime, hopefully with teeth that will bite.''
    Over the weekend, North Korea countered by stating that it 
would regard an attempted blockade of any kind by the United 
States and its supporters as an act of war, which would be 
``met with a decisive military response.'' The threats posed by 
North Korea are clear. Pyongyang's actions have raised tensions 
in Northeast Asia and caused countries in the region to 
reconsider their current military and strategic interests in 
that area of the world. Japan, for example, is contemplating an 
increase in its defense spending, and for the first time, 
taking a serious look at developing an attack capability.
    Such a capability and other steps that may be contemplated 
could well lead to an arms race in Northeast Asia. There is 
even discussion in some circles of Japan about gaining nuclear 
capabilities, which the country can easily achieve given its 
current technological advancements. In addition, North Korea's 
advances in missile and nuclear weapons technology and in the 
production of fissile materials also increase the potential for 
proliferation by other states in the region.
    While the threats posed by North Korea's actions are clear, 
the reasons underlying them are less apparent. We have 
something of a consensus among close observers of North Korea 
that has formed regarding two likely motivations. First, North 
Korea appears to be seeking advances in its nuclear weapons 
capability and delivery systems to demonstrate their 
effectiveness. Second, the country appears to be in the midst 
of a political transition.
    Kim Jong Il's health problems have apparently led him to 
designate his 26-year-old son, Kim Jong-un, as successor. Given 
a need to maintain support among the armed forces during this 
transition, President Kim Jong Il may be trying to satisfy the 
military's desire to test and improve its weapons system. The 
threats posed by North Korea are grave, and we must address 
them. How we do it is the focus of today's hearing.
    Another question is whether the Six-Party Talks initiated 
by the Bush administration remain relevant. In addition, how 
important is China's role in all of this and what options does 
the United States have now in the current crisis?
    Fortunately, our bilateral relationship is as strong as 
ever, encompassing social, cultural, economic, security and 
diplomatic links with South Korea. Our two great countries 
share values and interests, and millions of our citizens share 
family and personal ties. Recently, the United States 
strengthened these bonds by including South Korea in its visa 
waiver program. Our trade relationship is just as strong. 
Currently, our trade with South Korea ranks seventh in the 
world.
    On the security front, the bonds we forged in blood during 
the Korean War will never be forgotten, especially when some 
33,000 of our soldiers died during the Korean War fighting for 
the freedom of our brothers and sisters in South Korea. South 
Korea's deployment of forces to both Afghanistan and Iraq were 
vital to both operations. Its pledge to join the Proliferation 
Security Initiative to counter North Korea's proliferation 
activities is similarly significant. The upgrading of Korea to 
a NATO+3 member state within the U.S. Foreign Military Sales 
program, I believe, reflects our growing security cooperation. 
And now with President Lee's visit to Washington, our two 
countries have once again reaffirmed our unconditional and 
unwavering commitment to the bilateral alliance.
    As we face the challenge of North Korea, we know that we 
can count on our friends in Seoul, and they know that they can 
count on us. It is my sincere hope that together, we can bring 
Pyongyang back to the negotiating table and that we can make 
real progress in reducing the security threats it poses on the 
Korean Peninsula. I remain optimistic that the unified position 
of the Security Council in passing Resolution 1874 offers us a 
chance of that occurring, and it is my hope that today's 
hearing sheds some light on how we can address the seemingly 
intractable problems posed by North Korea. The issue of 
nonproliferation presented by North Korea is the reason we are 
holding this hearing jointly with my good friend, chairman of 
the Subcommittee on Terrorism, Nonproliferation and Trade, the 
gentleman from California, Mr. Brad Sherman. I will now turn to 
him for his opening statement.
    [The prepared statement of Mr. Faleomavaega 
follows:]<greek-l>Faleomavaega statement--Note: new file e-
mailed 11/2/09 deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Sherman. I want to thank the gentleman from American 
Samoa for co-hosting these hearings with our subcommittee. On 
the morning of May 25, North Korea exploded an atomic device 
with a 2- to 8-kiloton yield, which was unnerving given how 
much greater this yield was than the half-kiloton yield of 
2006. They also have conducted a barrage of missile tests in 
the first half of this year. Now, conflict on the Korean 
Peninsula is a distinct possibility, and the fact that North 
Korea does have nuclear weapons makes that a more dangerous 
possibility, but we should also focus on the fact that this is 
a regime with a criminal lust for funds.
    They have counterfeited currency, they have dealt drugs, 
and my concern, among others, is that North Korea will keep the 
first 15 nuclear weapons for itself and put the 16th on eBay. 
North Korea threatens the heart of the nonproliferation regime 
because like Iran, North Korea was a signatory to the 
nonproliferation agreement. If North Korea is allowed to become 
and remain a nuclear state, what will Japan and South Korea do, 
and what implications does the general increase of nuclear 
states have for the nonproliferation regime worldwide?
    Today's subcommittee hearing seeks to examine policy 
options for the United States. We ought to reflect on how we 
got here. Six-Party Talks began in August 2003. A few months 
after, North Korea had officially ``withdrawn'' from the 
nonproliferation treaty. In 2007/2008, the agreements appeared 
to have achieved significant temporary success. In February 
2007, North Korea agreed to disable its key nuclear facilities 
in exchange for food, energy and other benefits.
    In July 2007, the North shut down the Yongbyon reactor, and 
made a big television event of its destruction. In the midst of 
this progress came an inconvenient fact through late 2007, 
early 2008. We have been told by the Bush administration that 
U.S. Government would remove the designation of North Korea as 
a state sponsor of terrorism in return for what then Assistant 
Secretary Chris Hill promised would be a complete and correct 
declaration of North Korea's nuclear activities.
    He told Congress in February 2008, this declaration must 
include all nuclear weapons programs, materials, facilities, 
including clarification of any proliferation activities. The 
Democratic People's Republic of Korea, a.k.a. North Korea, must 
also address concerns related to any uranium enrichment 
programs and activities. The declaration was received last 
June, more than 6 months late. It was extremely incomplete. It 
said nothing about North Korea's proliferation, in spite of 
what we have seen in Syria.
    It said nothing about uranium enrichment, and it probably 
understated the amount of plutonium at the Yongbyon reactor. 
Shortly after the receipt of these documents, the Washington 
Post reported that the intelligence community found specks of 
highly enriched uranium on the papers, virtual proof that North 
Korea not only has the plutonium program at Yongbyon, but also 
a clandestine program to enrich uranium. Needless to say, this 
was not a good time, or a time that justified removing North 
Korea from the terrorism list.
    So, in response to the Bush administration notification, I 
introduced H.R. 6420 with six bipartisan cosponsors to block 
removing North Korea from the terrorism list. I was assured by 
then Secretary Rice that we would get equivalent information 
through the verification regime that we had been promised as 
part of the declaration. Well, it is clear we did not get that, 
and it is clear that the removal of North Korea from the 
terrorism list was somewhere between a mistake and premature, 
but we can continue to dance around with North Korea. The fact 
is, they well understand the situation.
    That situation is, they can do what they are doing and get 
away with it, not only in the area of nuclear activities, but 
they can probably resume the counterfeiting as well. The reason 
for this is simple. They are getting subsidies from China, not 
because China loves their regime, but because China finds that 
the most convenient thing for China to do, and given the 
overwhelming political power of the importers in this country, 
we can't do the obvious, which is to hint to China that their 
continued access to United States markets requires a change in 
their North Korea policy.
    So China will basically continue its policy. Yes, we have 
something passed at the U.N., watered down as it is. It poses 
no threat to the North Korean regime, and until, and I think it 
is highly unlikely this occurs, until China believes that 
either it has to change its policy toward North Korea or risk 
access to the United States market, or at least some 
interruption of that access; or unless China believes that its 
policy toward North Korea is going to lead to a nuclear South 
Korea, a nuclear Japan or a nuclear Taiwan. Unless China has 
that game-changing information, they are simply not going to 
change their policies, and when we look at our trade policy 
toward China, we not only have a disaster for the American 
manufacturing industry, we also have a disaster for our foreign 
policy. Given the enormous profits that are to be made by 
continuing the status quo, it is highly unlikely that it is 
going to change.
    I yield back.
    Mr. Faleomavaega. I thank the chairman for his statement. 
My senior ranking member is not here, the gentleman from 
Illinois, Mr. Manzullo, so I will now turn the time over to the 
Ranking member of the Subcommittee on Terrorism, 
Nonproliferation and Trade, the gentleman from California, Mr. 
Royce, for his opening statement.
    Mr. Royce. Thank you very much, Mr. Chairman. I certainly 
look forward to the testimony from our panel. I wish the 
administration, though, had agreed to testify today. This is a 
very important issue that we are struggling with. This is the 
second hearing this year that this subcommittee has held on 
North Korea. In February when we held this hearing, we heard 
testimony that North Korea ``is changing.'' It certainly has.
    Since that last hearing, North Korean policy, which has 
always been pretty aggressive, has gone into overdrive. We have 
had a long-range missile test, a nuclear test, uranium 
enrichment, and we have had the detention and sentencing of two 
American journalists to 12 years of hard labor. Yesterday, 
North Korea accused Laura Ling and Euna Lee of ``faking moving 
images'' of its human rights abuses. There is nothing fake 
about the house of horrors that is the North Korean system and 
the impact that it has had, to those of us that have been in 
North Korea. We have seen the consequences that it has had on 
its 1.9 million malnourished people, that we know of, who have 
starved to death as a result of that system.
    In response to the North Korean threat, the U.N. Security 
Council passed a resolution last week. Predictably, our 
ambassador to the U.N. boasted that it will ``bite in a 
meaningful way.'' Unfortunately, we have seen this before. A 
Chinese spokesman called the resolution ``balanced,'' and a 
Russian ambassador called it ``moderate.'' I think that says it 
all. As was the case in 2006, it is going to come down to 
enforcement, which was certainly lacking then. As Chairman Brad 
Sherman pointed out, we are going to continue to see China 
subsidize North Korea.
    This weekend's comments by South Korean President Lee 
Myung-bak to the Wall Street Journal are worth noting. 
President Lee, who we met with yesterday, said that the Six-
Party Talks aren't working and need to be changed. Defense 
Secretary Gates has said he is ``tired of buying the same horse 
twice.'' Yesterday, President Obama promised to ``break [the] 
pattern'' of crisis to concession to crisis. Better late than 
never. The compromise U.N. resolution aside, the United States 
should deploy our own measures to undercut North Korea's 
economy and target its proliferation activities.
    I can think of no more effective measure than the 2005 
sanctioning of Banco Delta Asia for laundering counterfeit 
United States currency for North Korea. It is a little vexing 
that North Korea is again counterfeiting United States bills. 
If we recall what happened then, when Treasury was able to 
convince the administration to deploy that strategy, banks 
across Asia refused to do business with Kim Jong Il. As a 
result, he was unable to pay his generals, and he got very, 
very antsy about that.
    It is the only time I have really seen his attitude change 
from one of constant aggression. Frankly, things were at a 
standstill for North Korea. That is until sanctions were 
dropped in the naive belief that North Korea would bargain away 
its nuclear program. If we are serious about a nuclear-free 
Korean Peninsula, the effort should be replicated. A former 
United States official who spearheaded this sanctions effort 
called Banco Delta Asia the ``tip of the iceberg'' with respect 
to North Korea's illicit activities.
    Indeed, news reports indicate that South Korea has given 
the United States information on between 10 and 20 North Korean 
bank accounts in China. One of these are in Switzerland, and 
that North Korean counterfeiting has been ramped up in recent 
months. We needed to act on these accounts yesterday. North 
Korean proliferation to the Middle East certainly heightens 
concerns. Pyongyang's cooperation with states such as Iran and 
Syria is very, very well documented.
    Last August, India responded to a United States request and 
blocked its airspace to a North Korean plane delivering illicit 
cargo to Iran. That plane had to turn back. There was the 
instance where they built a replica of their reactor that they 
had at Yongbyon on the Euphrates River in Syria. North Korean 
proliferation makes proposals to cap its nuclear program a non-
starter. While diplomacy dithers, we need to be bolstering our 
defenses against North Korean proliferation.
    That Seoul has finally joined the Proliferation Security 
Initiative is welcome, yet our last line of defense here is 
missile defense. The last line is that ability to intercept, 
which has been slashed by the Obama administration. While 
Pentagon officials testified before the Senate yesterday that 
North Korea's missiles could hit the United States in 3 years, 
House Democrats rejected efforts to restore missile defense 
cuts in the Armed Services Committee.
    North Korea, in the midst of a leadership struggle, has 
dropped the pretense of being willing to negotiate away its 
nuclear program. The sooner we recognize this and focus in with 
a renewed effort to box out North Korea from the international 
financial system--which is very effective because their money 
is worthless--they need hard currency.
    I have talked to defectors who shared with me that they 
weren't able to continue the missile programs at times when the 
hard currency crunch was put on North Korea.
    Why? Because they couldn't buy those clandestine, in this 
case, gyroscopes made in Japan that they were trying to buy on 
the black market in order to continue their missile line. You 
shut everything down when you shut down the hard currency. 
Boxing out North Korea from the international financial system, 
along with these other measures will give us a chance to slow 
down their program. We need to cease playing a game in which 
the hard currency that we put into the country, or even the 
food aid, which was not being monitored. We had to end our food 
aid for that very reason. Other states that have put food aid 
in, like the French NGOs, testify to us that food aid ends up 
on the Pyongyang food exchange where it is sold for hard 
currency for the regime.
    Half of the country is a no-go area where the food is not 
delivered. The food that is delivered, we have monitored, some 
of that goes to the army. It is really time to understand the 
nature of the strategy we have been dealing with on the other 
side of the table.
    Thank you, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentleman from California for 
his statement. At this time, on my right side, as a courtesy to 
the vice chairman of the Subcommittee of Terrorism, 
Nonproliferation and Trade, I turn to the gentleman from 
Georgia, Mr. Scott, if he has an opening statement to make.
    Mr. Scott. Yes, I do, and thank you very much. This is 
clearly an extraordinarily timely hearing. There certainly is 
no more pressing issue for the security of our nation, and 
indeed the world, than North Korea's reckless pursuit of 
nuclear weapons technology. The Obama administration, we in 
Congress, are faced with an extraordinary dilemma. Every day, 
North Korea's capability grows and brings ever more territory 
into range of their missiles and their maniacal posturing, and 
what fears me most about this very serious situation is that I 
feel we may have very well lost whatever momentum we had in 
dealing with this crisis.
    The Six-Party Talks have stalled and certainly bilateral 
negotiations have proven equally unfruitful. We are dealing 
with a relatively aging person in leadership who has recently 
had a stroke. We do not know what his physical and mental 
capacities are. If something happens to him, there will be a 
collective leadership in place which we have very little 
information about. There are question marks about his 
succession and whether his sons are, at this point, ready.
    So what mechanisms do we have left for dealing with this 
regime? There is no limit to what a government will do when it 
ceases to care about its people. That is what is happening in 
North Korea, and certainly Kim Jong Il's regime has no regard 
for the health and well-being of its own people. So clearly, 
what regard does he have for you and for me? Kim Jong Il would 
rather allow his own people to starve to death than give up 
their pursuit of nuclear weapons.
    Starvation is rampant in North Korea. Indeed, recent events 
make me wonder if they have ever negotiated at all in good 
faith on this issue. It sort of reminds me very much of an old 
Peanuts comic strip, when Lucy would ply the affable yet 
gullible Charlie Brown into running full speed ahead to kick a 
football and then would yank the football out from under him at 
the last minute leaving him flying through the air to land with 
a heavy thud, and of course, we are the Charlie Brown in this 
scenario.
    So I wonder, how many times to we have to fall on our rear 
end before we stop running to kick this football? How long 
until we begin to explore options outside of the Six-Party 
Talks? Are we already doing that, and are they working? It 
would seem not. And can we ever trust North Korea to say what 
it means and do what it says? I doubt it very seriously, as 
long as, and here is my major point, as long as Russia and 
China continue to play benefactor, and ladies and gentlemen, 
this is the key.
    I feel that the key and the answer to this dilemma with 
North Korea does not lie with either the Obama administration 
or us in Congress. It lies with China and Russia. They must 
become more forceful with North Korea in order to convince them 
to give up their pursuit of nuclear weapons. It is China that 
whatever feed they get, it is China. China is their benefactor. 
Not until China and Russia see North Korea as a threat will we 
begin to unravel this situation.
    They hold the key. They hold the trump cards in this drama 
to be able to stop North Korea, and I am certainly pleased that 
we were finally able to have China and Russia join us in 
approving more strict U.N. sanctions. That is a good sign. That 
is the road I think that we have to travel, and it seems that 
Russia and China are finally starting to realize that indeed, 
North Korea poses a threat to them as well as us and the rest 
of the Western world.
    But the question is this: When North Korea tests our will 
to enforce these increased sanctions, as they most assuredly 
will, are China and Russia in a position to give North Korea 
the toughness, maybe we should say the tough love, that it 
really needs, or will they cave to pressure, and if so, we need 
to find out what that pressure is. Undoubtedly, this is a 
complex issue, and solving this crisis will require a great 
deal of creative thinking on everyone's part, but try we must. 
The safety of the world and this planet rests with what we do 
concerning North Korea.
    I yield back, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentleman from Georgia from 
his statement, and now I would like to turn the time over to 
the ranking member of our Subcommittee on Asia, the Pacific and 
the Global Environment, the gentleman from Illinois, for his 
opening statement.
    Mr. Manzullo. Thank you, Mr. Chairman, for calling this 
very important hearing. I want to commend the valiant work of 
Ambassador Chris Hill in trying to juggle all these balls at 
one time, because that is indeed what we see going on, but I 
also see the North Koreans as trying to play games with 
America. Perhaps they were sincere in dealing with Mr. Bush and 
then decided, well, we have got a new President, let us see if 
we can get a better deal out of him.
    I don't think that is going to work, because the mettle to 
stop North Korea from becoming even more of a nuclear state 
surpasses party lines, and we have to dig in under this 
administration as we dug in under the other administration to 
make sure we do everything possible to stop the North Koreans, 
and so I don't think their bidding contest, looking for a 
better deal with the new President is going to work, and I know 
they follow public opinion very closely, and perhaps they will 
pick up on this very short opening statement.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Manzullo 
follows:]<greek-l>Manzullo statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. I thank the gentleman from Illinois for 
his statement. I would also like to recognize on the dais some 
of our distinguished members of the committee who have joined 
us for this hearing, the gentleman from Virginia, Mr. Connolly, 
the gentlelady from Texas, Ms. Jackson Lee, and the gentleman 
from Nebraska, Mr. Fortenberry. I am glad that you could join 
us. Mr. Poe from Texas is also here with us, and Mr. Boozman, 
as well.
    As a courtesy to some of the members of the public, I can 
feel your pain standing there. I am going to have you come sit 
here, as long as you don't press the talk button. There are 
about 12 seats right in the third tier. You can come and sit 
there, if you are inclined--so you won't have to stand. Come 
and join us. We are not prejudiced.
    There are some more seats here. How about some of the young 
scholars that we have here.
    Mr. Poe. Mr. Chairman, they are trying to figure out which 
side to sit on. [Laughter.]
    Mr. Faleomavaega. Just to remind you, if you are on the 
right side, you are a Democrat. If you are on the left side, 
you are a Republican. No, please join us.
    Mr. Connolly. It kind of works out, Mr. Chairman. It is two 
to one.
    Mr. Faleomavaega. [Speaking Samoan.] That was the language 
that Adam and Eve spoke in the Garden of Eden, if you want to 
know. Our young gentlemen here came all the way from Samoa to 
join us.
    Well, this morning, I certainly would like to offer my 
personal welcome to our distinguished guests, members of the 
panel whom we have invited to testify at our hearing this 
morning, and I would like to just share with the members of 
both subcommittees the distinguished records of scholarship and 
experience they have had, and I think their sense of expertise 
fits right into the picture in terms of what we are trying to 
deliberate on this morning.
    The first gentleman that I want to introduce is Mr. Selig 
Harrison, a senior scholar at the Woodrow Wilson International 
Center for Scholars and currently the director of the Asia 
Program at the Center for International Policy. He has 
specialized in South Asia and East Asia for some 58 years as a 
journalist and scholar, and is the author of five books and 
probably several hundred articles that have appeared in all the 
major national newspapers and magazines.
    One aspect of Mr. Harrison's distinguished record is the 
fact that the former chairman of this subcommittee called Mr. 
Harrison a prophet, for the simple reason that he gave a 
warning about 18 months before the war that took place between 
India and Pakistan, predicting correctly what would happen in 
that area of the world. He also predicted that Russia would 
invade Afghanistan, and that is exactly what happened in later 
years, and that Russia would not be able to take control of 
Afghanistan. I am very happy and pleased that Mr. Harrison has 
been able to give us the benefit of his time to join us at this 
hearing this morning.
    Ambassador Thomas Hubbard is a senior director of McLarty 
Associates in Washington where he specializes in Asian affairs, 
was a Foreign Service Officer for nearly 40 years, having 
served as U.S. Ambassador to Korea, Ambassador to the 
Philippines and as Ambassador to Malaysia. I think that should 
give us a real sense of understanding of this gentleman's 
record and his experience in serving in that area of the world.
    With us also is Scott Snyder, currently a senior associate 
in the Washington program at the International Relations 
program of The Asia Foundation. He joined the Asia Foundation 
as a country representative in Korea in 2000 for 4 years, wrote 
several op-ed articles in journals and newspapers, is a 
graduate of Rice University, holds a master's in Regional 
Studies at Harvard University, and is very familiar with the 
Korean Peninsula.
    Dr. Richard Bush is currently visiting professor at Cornell 
University in China and the Asia-Pacific Studies Program there, 
and is also director of the Center for Northeast Asian Policy 
Studies at the Brookings Institution. He served previously as 
chairman of the board and managing director of the American 
Institute in Taiwan. He has held a host of other positions 
including as a senior advisor to the former chairman of the 
Committee on Foreign Affairs, Congressman Lee Hamilton, and as 
a consultant to then chairman of the Asia, the Pacific and the 
Global Environment Subcommittee on Foreign Affairs, my good 
friend, former Congressman Steve Solarz from New York.
    I hope I haven't forgotten anybody here. Did I miss 
anybody? Gentlemen, I do want to thank you for taking the time 
from your busy schedule and coming and sharing with us. Again, 
the question is, ``North Korea's Nuclear and Missile Tests and 
the Six-Party Talks: ``Where Do We Go From Here?''
    Mr. Harrison?

   STATEMENT OF MR. SELIG S. HARRISON, DIRECTOR OF THE ASIA 
          PROGRAM, THE CENTER FOR INTERNATIONAL POLICY

    Mr. Harrison. Mr. Chairman, this is a very dangerous moment 
in our relations with North Korea, the most dangerous since 
June 1994, when Jimmy Carter went to Pyongyang with the 
grudging consent of the Clinton administration. Carter 
negotiated an agreement with Kim Il Sung that headed off a war 
and paved the way for the suspension of the North Korean 
nuclear weapons program for the next 8 years. Now, we urgently 
need another high-level unofficial emissary, but the Obama 
administration is not even prepared to give its grudging 
consent to Al Gore.
    Vice President Gore wants to negotiate the release of the 
two imprisoned U.S. journalists, Laura Ling and Euna Lee, both 
employees of Current TV, which he founded, and I believe that 
he could in the process pave the way for a reduction of 
tensions. As members of this committee may know, Al Gore met 
Hillary Clinton on May 11, May 11. He asked for the cooperation 
of the administration in facilitating a mission to Pyongyang 
and in empowering him to succeed in such a mission by exploring 
with him ways in which the present stalemate in relations 
between North Korea and the United States can be broken.
    She said she would consider his request, but the 
administration has subsequently delayed action. The 
administration's position is that the case of the two 
imprisoned journalists is a humanitarian matter and must be 
kept separate from the political and security issues between 
the two countries. In a News Hour interview with U.N. 
Ambassador Susan Rice on June 10, Margaret Warner asked Rice 
how the latest U.N. sanctions resolution would ``complicate 
efforts to win the release of the two American journalists,'' 
but Rice turned the question around, declaring that the issue 
of the two journalists ``cannot be allowed to complicate our 
efforts to hold North Korea accountable'' for its nuclear and 
missile tests.
    I believe this is a very unrealistic position. It shows a 
callous disregard for the welfare of Laura Ling and Euna Lee. 
It ignores the danger of a war resulting from the 
administration's naive attempts to pressure North Korea into 
abandonment of its nuclear and missile programs. Past 
experience with North Korea has repeatedly shown that pressure 
invariably provokes a retaliatory response that makes matters 
worse. The administration should instead actively pursue the 
release of the two women through intervention on their behalf 
by a high-level unofficial emissary empowered to signal United 
States readiness for tradeoffs leading to the reduction of 
tensions, such as the provision of the 200,000 tons of oil that 
had been promised to North Korea, but had not been provided, 
when the Six-Party Talks broke off last fall.
    This was one-third of the energy aid promised in return for 
the disablement of the Yongbyon reactor. Of course, any 
agreement to provide that oil should require that North Korea 
stop its present efforts to rebuild the reactor. Now, looking 
ahead, the goal of the United States should be to cap the North 
Korean nuclear arsenal at its existing level and to move toward 
normalized relations as the necessary precondition for progress 
toward eventual denuclearization.
    Now, the gentleman from California, I believe, said that 
capping is a non-starter. That may be, but it is the only way, 
the only way we are going to get anywhere, and it is very 
important to keep this option of capping as our major 
diplomatic objective. The prospects for capping the arsenal at 
its present level have improved as a result of Pyongyang's June 
13 announcement admitting that it has an R&D program for 
uranium enrichment.
    Since this program is in its early stages, and it is not 
yet actually enriching uranium, there is time for the United 
States to negotiate inspection safeguards limiting enrichment 
to the levels necessary for civilian uses. Until now, North 
Korea's denial of an R&D program has kept the uranium issue off 
the negotiating table and it has kept alive unfounded 
suspicions that it is capable of making weapons-grade uranium. 
It is very far, indeed, from that.
    Progress toward denuclearization would require United 
States steps to assure North Korea that it will not be the 
victim of a nuclear attack. In Article Three, Section One of 
the Agreed Framework, the United States pledged that it ``will 
provide formal assurances against the threat or use of nuclear 
weapons by the United States'' simultaneous with complete 
denuclearization. Pyongyang is likely to insist on a 
reaffirmation of this pledge before there is any eventual 
denuclearization.
    Realistically, if the United States is unwilling to give up 
the option of using nuclear weapons against North Korea, it 
will be necessary to live with a nuclear-armed North Korea 
while maintaining adequate United States deterrent forces in 
the Pacific, and we do have adequate deterrent forces in the 
Pacific. We should keep this in mind as we paint alarmist 
scenarios of the danger that we face.
    The President set the tone for a new direction in United 
States relations with the Muslim world in Cairo. He 
acknowledged the legacy of colonialism in the Middle East. He 
acknowledged the impact of the Israeli occupation on the 
Palestinians and the United States role in overthrowing the 
elected Mossadegh regime in Iran. Similarly, I believe, he 
should break through the present poisonous atmosphere by 
expressing his empathy for the deepest feelings of the Korean 
people in both the North and the South, which he hasn't done.
    Visiting Pyongyang on March 31, 1992, the Reverend Billy 
Graham declared ``Korean unity was a victim of the Cold War.'' 
He acknowledged the United States role in the division of Korea 
and he prayed for peaceful reunification soon. President Obama 
should declare his support for peaceful reunification through a 
confederation, as envisaged in the North-South summit pledges 
of June 2000 and October 2007, in order to set to rest North 
Korean fears that I found very much alive on the last of my 11 
visits in January, in order to set to rest North Korean fears 
that the United States will join with the right-wing elements 
in Japan and South Korea now seeking reunification by promoting 
the collapse of the North Korean regime.
    Above all, he should express his empathy for the painful 
memories of Japanese colonialism shared by all Koreans. 
Secretary of State Hillary Clinton demonstrated complete 
insensitivity to these memories during her Tokyo visit on 
February 18 by needlessly embroiling herself in the explosive 
abductee dispute between North Korea and Japan and by ignoring 
Kim Jong Il's apology to Prime Minister Koizumi on September 
17, 2002. This abductee dispute is a bilateral dispute, and to 
paraphrase Susan Rice, ``should not be allowed to complicate'' 
the reduction of tensions with Pyongyang and its eventual 
denuclearization.
    In the event of another war with North Korea resulting from 
efforts to enforce the U.N. sanctions, it is Japan that North 
Korea would attack, in my view, not South Korea, because 
nationalistic younger generals with no experience of the 
outside world are now in a strong position in the North Korean 
leadership following Kim Jong Il's illness and his reduced role 
in day-to-day management. Some of these nationalistic younger 
generals, I learned in Pyongyang, were outraged when Kim Jong 
Il apologized to Koizumi in 2002 and they have alarmed others 
in the regime with their unrealistic assessments of North 
Korea's capabilities in the event of a conflict with Japan.
    The U.N. sanctions, in conclusion, have further 
strengthened the position of these nationalistic younger 
generals because all North Koreans feel that they do face a 
threat from the United States nuclear weapons deployed near 
their borders. All North Koreans, I believe, would be united, 
in my view, if tensions resulting from attempts to enforce the 
sanctions should escalate to war.
    Thank you very much.
    [The prepared statement of Mr. Harrison 
follows:]<greek-l>Selig Harrison deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Mr. Harrison.
    Ambassador Hubbard?

STATEMENT OF THE HONORABLE THOMAS C. HUBBARD, SENIOR DIRECTOR, 
   MCLARTY ASSOCIATES (FORMER AMBASSADOR TO THE REPUBLICS OF 
               KOREA, THE PHILIPPINES AND PALAU)

    Ambassador Hubbard. Thank you, Mr. Chairman, for inviting 
me here this morning. I have had the opportunity in Korea and I 
think also the Philippines to invite you to my ambassadorial 
residence and I am glad to be here in your house this morning.
    Mr. Faleomavaega. Yes, I have not forgotten, and certainly 
appreciate the courtesies that you have extended. Thank you.
    Ambassador Hubbard. Also, Mr. Royce has visited both of 
these places, and I hope at the outset it would not be 
inappropriate for me to add one further element to my 
biographic information that you did not mention and that is 
that I was actually the first U.S. Ambassador to the Republic 
of Palau. I was ambassador there concurrently with my 
assignment to----
    Mr. Faleomavaega. Noted for the record, you were the first 
Ambassador to the Republic of Palau,----
    Ambassador Hubbard. That is correct.
    Mr. Faleomavaega [continuing]. Who has just accepted four 
Uighurs to be part of that little island nation.
    Ambassador Hubbard. That is exactly why I mentioned it. I 
wanted to take this occasion to----
    Mr. Faleomavaega. And I appreciate that.
    Ambassador Hubbard [continuing]. Say how much I appreciate 
and welcome their help in dealing with this Uighur situation.
    Mr. Faleomavaega. Thank you, Ambassador.
    Ambassador Hubbard. Mr. Chairman, I have been deeply 
involved in North Korean affairs for over 15 years, first as a 
senior official in the East Asia Bureau in the State Department 
during the Clinton administration, later as Ambassador to South 
Korea under the Bush administration, and more recently as a 
happy member of the private sector often asked to comment on 
North Korean matters. Throughout this period, the central 
United States objective has been a verifiable end to North 
Korea's nuclear weapons program, and our preferred means of 
achieving that objective has been dialogue.
    We have of course seen many ups and downs in the various 
forms of negotiations that have been tried since 1992 when then 
Undersecretary of State Arnold Kanter held the first direct 
talks with a senior North Korean official during the first Bush 
administration. As a senior member of the Clinton 
administration delegation led by Robert Gallucci that first sat 
down with a DPRK delegation in New York in June 1993, I share 
the frustration that we have heard this morning that this 
problem has grown only worse over time despite all our efforts.
    The North Korean threat that we face in 2009 is 
significantly more serious than the one we confronted in the 
early 1990s. Whereas we suspected that the North Koreans had 
squirreled away enough plutonium for one, maybe two nuclear 
weapons when they balked at International Atomic Energy Agency 
inspections in 1993, 16 years later we know that they have 
substantially more. They have conducted two underground nuclear 
explosions and have tested a range of ballistic missiles that 
could become delivery systems.
    Earlier agreements to forgo nuclear weapons 
notwithstanding, the DPRK's nuclear weapons programs are once 
again up and running. The North Koreans now boast of their 
nuclear deterrent and maintain that they are willing to return 
to the negotiating table only if their status as a nuclear 
weapons state is recognized, but in the wake of North Korea's 
second nuclear test and successive missile tests, I have been 
asked for my assessment of the motivations behind these and 
other provocative acts.
    It goes without saying that no one really knows what goes 
on behind the walls of one of the most isolated and secretive 
nations in the world, but we must assume that regime survival 
is Kim Jong Il's most fundamental objective and that he sees 
the United States and its alliance with South Korea as the 
primary threat to his hold on power. For the past 15 years, we 
have tended to see North Korea's provocative behavior as a 
negotiating tactic aimed primarily at attracting our attention, 
at drawing the United States into bilateral negotiations in 
which we would offer security assurances and financial aid in 
exchange for North Korean promises to give up its nuclear 
programs.
    That was probably a correct assessment until recently and 
remains one of the DPRK's important aims at the outset of a new 
administration. However, I believe we have entered into a new 
situation in which the DPRK leadership is motivated as much by 
domestic factors as by an interest in manipulating the United 
States. What has changed? Leadership transition is one new 
factor. Having suffered a debilitating stroke at the age of 67, 
Kim Jong Il is bound to be thinking about his legacy and about 
leadership succession.
    There are widespread reports that he has chosen his 27-
year-old youngest son to be his successor. It may be that he 
has come to see his nuclear missile programs less as a 
bargaining chip than as his best security option, a legacy of 
his leadership that will ensure the survival of a successor 
regime and give the DPRK a continuing voice in world affairs 
despite its economic failures.
    Following the collapse of its principal international 
benefactor, the Soviet Union, in the early 1990s, the DPRK 
leadership appeared to signal that it saw a closer relationship 
with the United States as the best way to ensure regime 
survival. Sig Harrison was one of the prophets who foreshadowed 
that approach. The North Koreans also pursued warmer relations 
with South Korea, with whom it signed a mutual denuclearization 
agreement in 1992, but as it enters a difficult transition 
period, the DPRK appears to have at least temporarily abandoned 
that approach in favor of a return to its traditional approach 
of self-isolation, this time armed with a demonstrated, albeit 
rudimentary, nuclear capability.
    If the DPRK leadership is determined to turn its back on 
the world, it is a profound tragedy for the people of North 
Korea, since only by joining the international community can 
they gain the assistance and technology that they need to 
overcome their enormous economic challenges. Through dialogue 
in various venues, the U.S. and its partners in the region have 
long offered such assistance in exchange for the DPRK's 
abandonment of its nuclear programs.
    Sadly, the DPRK has consistently failed to abide by its 
commitments, obviously hedging its bet on a strategic 
relationship with the U.S. by seeking to hold onto its nuclear 
card as long as possible. I wouldn't argue that successive 
United States administrations and our allies have always been 
wise or consistent in their approach to North Korea. Mutual 
confidence has been hard to build. However, the North Korean 
regime has only itself to blame for the suffering of its 
people.
    By failing to avail itself of the benefits that were 
offered in the Six-Party Talks at the end of the Bush 
administration and then by rejecting the hand that was extended 
by the Obama administration, the DPRK leadership has gone out 
of its way to reject its best hope for security and prosperity. 
Where, then, should we go from here? I agree with the basic 
approach being followed by the Obama administration. First and 
foremost, we must not recognize the DPRK as a permanent nuclear 
power.
    Some prominent Americans have argued that nuclear weapons 
are now a fact of life in North Korea, too valuable for the 
regime to ever give up. They argue that talks are futile. We 
should instead build missile defenses and isolate the DPRK, 
waiting for eventual Korean unification to solve the nuclear 
problem for us. I disagree with that view. While the potential 
of the DPRK actually using nuclear weapons seems remote, the 
risk of transfer to other dangerous countries or groups is such 
that we cannot rely entirely on deterrents and containment.
    Moreover, acceptance of North Korea as a nuclear weapons 
state without efforts to change things would be deeply alarming 
to some of our closest allies and could well lead to a regional 
arms race. While recognizing that quick success is unlikely, we 
need to vigorously pursue a proactive policy aimed at 
verifiable denuclearization. A willingness to engage North 
Korea directly, combined with pressure, is the best way 
forward. North Korea's defiance of the international community 
has been costly to North Korea.
    One result of its outrageous recent behavior has been to 
bring the other partners in the Six-Party Talks closer 
together. When President Obama and ROK President Lee Myung-bak 
met yesterday in Washington, they displayed the most unified 
front that we have achieved since our two countries began 
direct dialogue with North Korea on nuclear issues. Moreover--
--
    Mr. Faleomavaega. Not to cut you short, Mr. Ambassador, but 
we have got a little time there----
    Ambassador Hubbard. I have got 5 seconds.
    Mr. Faleomavaega. All right, 5 seconds. Thank you.
    Ambassador Hubbard. Agreeing that North Korea's challenge 
to the international community must have consequences, China 
and Russia supported a strong U.N. Security Council resolution 
condemning North Korea's behavior in no uncertain terms, and 
calling for concrete steps to address the proliferation issue. 
If the North Koreans continue to deny the international 
community, pressure is our only option, and it is crucial that 
the measures called for in the Security Council resolution be 
carefully implemented.
    At the same time, we should leave open a path to dialogue, 
as President Obama has done. Now, since the beginning of 
dialogue with North Korea, we have looked for clear signals of 
whether the DPRK leadership has made a strategic decision to 
give up its nuclear weapons programs. Several times, the DPRK 
has proclaimed its willingness to do so but insisted upon a 
phased process that has enabled it to obtain assurances and 
benefits without taking irrevocable steps to end the weapons 
capability.
    When we get back to the negotiating table, as I believe we 
will once the North Korean leadership situation stabilizes, we 
will need to insist upon a broader approach that will truly 
test North Korea's strategic intention from the outset, and I 
continue to believe, Mr. Chairman, that the Six-Party Talks are 
the best means of conducting those negotiations and we should 
keep trying to get them back in operation.
    Thank you.
    [The prepared statement of Ambassador Hubbard 
follows:]<greek-l>Thomas Hubbard deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Faleomavaega. Thank you, Ambassador Hubbard.
    Mr. Snyder?

STATEMENT OF MR. SCOTT SNYDER, DIRECTOR, CENTER FOR U.S.-KOREA 
  POLICY, SENIOR ASSOCIATE, INTERNATIONAL RELATIONS, THE ASIA 
                           FOUNDATION

    Mr. Snyder. Thank you, Mr. Chairman, for the opportunity to 
be here to present my views at a particularly sensitive moment 
in which tensions continue to escalate on the Korean Peninsula, 
as the co-chairs' opening statements have amply shown. Through 
a series of North Korean provocations and U.N. Security Council 
responses, the North Koreans have declared that they will never 
participate in Six-Party Talks, nor will they be bound any 
longer to any agreement of the talks.
    In lieu of the Six-Party Talks, I believe that North 
Korea's missile and nuclear tests have mobilized a renewed 
commitment among concerned parties to a Six-Party process of 
policy coordination efforts in which the United States 
administration continues to work closely with North Korea's 
immediate neighbors to respond to North Korea's provocative 
actions. I think one evidence of the development of the Six-
Party process is illustrated in the context of a P-5 Plus Two 
working group at the UNSC, in which the core members of the 
Six-Party process not on the U.N. Security Council, Japan and 
South Korea, were also brought in to negotiate the UNSC 
Resolution 1874.
    As I explain in my written testimony and am prepared to 
talk in greater detail, the Six-Party process enables the 
United States to pursue a multi-track strategy designed to 
shape North Korea's context and perceived choices while 
minimizing dependence on political cooperation with specific 
North Korean leaders. Such a strategy focuses on alliance-based 
cooperation with Korea and Japan and enhanced prospects for 
cooperation with China to support either engagement or a 
coordinated response to North Korean contingencies, but in the 
time here I want to emphasize six reasons why I believe a Six-
Party process focused on cooperation among those members of the 
Six-Party Talks is critical.
    First, the Six-Party Talks process signals a continued 
commitment by the concerned parties to the mutually shared 
objectives represented in the Six-Party Joint Statement of 
2005, including denuclearization, diplomatic normalization, 
economic development and peace on the peninsula. Second, the 
Six-Party process is a symbol of a region-wide commitment to 
the objective of denuclearization of North Korea. It is 
important that the United States continue to reiterate its 
commitment to the Six-Party Talks as a way of signaling that it 
has not abandoned the objective of achieving North Korea's 
denuclearization.
    Third, intensified policy coordination among concerned 
parties through the Six-Party process provides the best 
available means by which to increase pressure on North Korea to 
return to the Six-Party Talks and honor its commitments to 
denuclearization. I might add that that process also puts 
pressure on the other parties in that process to live up to 
their international commitments in terms of implementation of 
the U.N. Security Council resolution.
    Fourth, the Six-Party process provides an umbrella under 
which concerned parties may conduct renewed diplomacy with 
North Korea with the objective of providing a pathway for 
returning to the Six-Party Talks as a means by which to pursue 
North Korea's denuclearization. Fifth, the implementation of 
the Six-Party process reinforces practical coordination 
measures among members of the Six-Party Talks, but unlike the 
Six-Party Talks, the Six-Party process cannot be paralyzed by a 
North Korean veto.
    The Six-Party process, unlike the possible announcement of 
a Five-Party Talks format, does not explicitly exclude North 
Korea and it does not prejudge whether or when the North 
Koreans might be willing to come back to the negotiating table. 
Sixth, the development of the Six-Party process involving 
enhanced coordination among the United States and North Korea's 
neighbors does not make assumptions about the future of North 
Korea's leadership or about the successive process. It does not 
prejudge whether or when the North Koreans might be willing to 
come back to negotiations.
    A final point that I might make related to North Korea's 
seeming inward focus is that I believe that it complicates the 
task of engaging North Korea, either through dialogue or 
pressure, because the risks of engagement are heightened as 
long as North Korea prioritizes internal over external factors, 
raising the political risks associated with reaching out to 
North Korea while diminishing the prospect that North Korea 
will take the initiative to satisfy external interests.
    However, there is a concern that if the North Koreans 
decide that they have no way out, they might lash out, and for 
this reason I believe it is important for the administration to 
continuously adopt a posture of openness, to resumption of 
diplomatic dialogue with North Korea, at the same time that the 
United States engages in regional coordination in an effort to 
shape the context in which North Korea considers options to 
pursue its own security.
    Thank you.
    [The prepared statement of Mr. Snyder 
follows:]<greek-l>Scott Snyder deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Mr. Snyder.
    Mr. Bush?

  STATEMENT OF MR. RICHARD C. BUSH III, DIRECTOR, CENTER FOR 
   NORTHEAST ASIAN POLICY STUDIES, SENIOR FELLOW, BROOKINGS 
  INSTITUTION (FORMER NATIONAL INTELLIGENCE OFFICER FOR EAST 
                             ASIA)

    Mr. Bush. Thank you very much, Mr. Chairman, members of the 
subcommittees. Thank you, Mr. Chairman, for mentioning Steve 
Solarz, who is a mentor to us both. If I could correct your 
introduction in one point, I am still working at the Brookings 
Institution. I certainly hope I am.
    Mr. Faleomavaega. The record is corrected.
    Mr. Bush. I have submitted a written statement and I ask 
that that be included in the record.
    Mr. Faleomavaega. Without objection, all of the gentlemen's 
statements are made part of the record.
    Mr. Bush. Orally, I wish to make six points. First of all, 
the game in Northeast Asia has changed. North Korea's spurning 
of President Obama's hand of engagement and its missile test 
and nuclear test have transformed the challenge that it poses 
to the international system. Before, there was hope that a 
negotiated solution might offer enough incentives to get 
Pyongyang to abandon the nuclear option. Now, that hope has 
disappeared for the foreseeable future.
    Consequently, for now, the Six-Party Talks have lost their 
rationale. The assumption of the Six-Party Talks, of course, 
was that North Korea might give up its nuclear weapons and 
programs. The only question was how to induce it to do so. The 
Six-Party Talks were a worthwhile venture, but recent North 
Korean statements and actions make it clear that it will not 
denuclearize. The working assumption of the Six-Party Talks no 
longer exists. That may change at some point, but for now, we 
have to face that reality.
    Second, as members have noted, North Korea's missile and 
nuclear choice exacerbates two dangers. The first is the 
transfer of nuclear technology, fissile materials and/or 
nuclear weapons themselves to countries or parties that are 
hostile to the United States. The second is destabilizing the 
security situation in Northeast Asia. Both of these dangers are 
serious. How we respond depends on the relative seriousness of 
each, but neither can be ignored. In addressing the 
proliferation threat, for example, we should not downplay the 
importance of Japan's and South Korea's confidence in our 
defense commitments to them.
    Third, even though<greek-l>t deg. the prospects for the 
Six-Party Talks in the near term are bleak, the United States, 
China, South Korea, Japan and Russia should remain committed to 
the idea of a negotiations process should conditions change for 
the better. By that I mean North Korea changing from its 
current course and affirming in a credible way its commitment 
to the goal of the talks, denuclearization, and to its past 
pledges.
    Fourth, China's role in the North Korea issue is crucial 
but complicated. Its trade with and investment in the DPRK have 
expanded substantially during this decade. If Beijing imposed a 
trade embargo on North Korea, it could bring the country to its 
knees, but China has been reluctant to impose severe economic 
sanctions. First of all, it has doubted that they would elicit 
a positive response, and it worries that too much external 
pressure on North Korea might cause the collapse of the DPRK 
regime, producing, among other things, a large flow of refugees 
into northeast China.
    Thus, North Korea's dependence on China is in fact a kind 
of reverse leverage. I believe, however, there are changes 
underway in China's view. Before 2009, China took an evenhanded 
approach to the effort to secure the denuclearization of the 
Korean Peninsula, believing that both Pyongyang and Washington 
were each responsible for the slow pace of progress. After the 
recent tests, by all reports, China is quite angry at 
Pyongyang. The DPRK has trashed the Six-Party Talks, which 
China created, and given the United States, Japan and South 
Korea reasons to stiffen their defense postures in the 
Northeast Asian region, which undermines China's security, or 
China believes that.
    So North Korea has become a threat to China. For Beijing, 
regional stability is becoming as important as domestic 
stability. Unlike before, China agrees that for now, the 
premise of the Six-Party Talks has disappeared. China's anger 
at the DPRK and its understanding that we are in a new 
situation was clear in the sanctions the U.N. Security Council 
passed on June 12. These are not perfect but they are detailed 
and far-reaching.
    China and Russia had to give their agreement. The test will 
be implementation, but I do not believe that Beijing would have 
agreed to this text if it planned to treat the sanctions as a 
dead letter. We will see, and I think we should reserve 
judgment on implementation. I am confident that the U.S. 
implementation will be robust.
    Fifth, if there is any change for the better in North 
Korean policy, it is not likely to come quickly or in response 
to modest amounts of pressure. That is because of the 
converging and reinforcing factors that led the DPRK to its 
current policy, but basically, I agree with Ambassador Hubbard 
that the succession process is the important factor here and we 
are going to have to wait for that to play out. Let me be 
clear, though. The death of Kim Jong Il will create the 
possibility, and only the possibility, of a more favorable DPRK 
approach. The international community should prepare for the 
possibility that North Korea may never be willing to give up 
its nuclear weapons under any conditions. In that case, I think 
we have to think about five-party containment.
    My sixth and final point: Even if the international 
community does nothing, North Korea will change after the death 
of Kim Jong Il. No one knows how change will occur, but one 
possibility is collapse, with profound consequences for the 
United States, South Korea, Japan and China. It is my 
impression, regrettably, that these countries have yet to 
engage in the consultations necessary to prepare for the 
possibility of rapid and destabilizing change, yet we ignore 
the danger of collapse at our collective peril.
    Thank you.
    [The prepared statement of Mr. Bush 
follows:]<greek-l>Richard Bush deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Mr. Bush. I have about a 
hundred questions that I want to ask you gentlemen, but as a 
courtesy to our distinguished members on the committee, I am 
going to withhold my questions for now. I would like to ask the 
vice chairman of the Subcommittee on Terrorism, 
Nonproliferation and Trade, Mr. Scott, for his line of 
questions, and I am going to stick to the 5-minute rule because 
we have other members who also want to ask questions, so please 
comply with that rule.
    Mr. Scott. Thank you very much, Mr. Chairman.
    Let me pick up with you, Mr. Bush. I think that each of you 
gave some very, very important pieces of information and I 
would like to take a moment to get your opinions on these. I 
concur with you, as I mentioned in my opening remarks. I think 
the key really is China and Russia being able to ascertain the 
level of threat to their security on the part of North Korea, 
and Mr. Bush, you talked about that, and I would like to get 
your thoughts on the level of threat that you see now.
    How can that be used, what is that threat that you 
mentioned that China now, I believe you said, is beginning to 
see from North Korea? How would you describe that threat?
    Mr. Bush. I would describe it this way. North Korea's 
having set a course on keeping its nuclear weapons raises 
several security challenges for China. Number one, it doesn't 
rule out the possibility that those missiles and nuclear 
weapons could be pointed at China. Second, the United States 
will enhance its security posture in East Asia to deal with 
this tougher North Korean posture. Among the areas that I think 
will be built up are missile defense, and that is a problem for 
China because one of its major ways of projecting power are 
ballistic missiles.
    And third, there is China's concern that Japan and South 
Korea will respond with nuclear programs of their own. I am not 
sure that the possibilities of that are very high, but China 
has to be worried about that. And so, in all of these ways, 
China sees a more threatening security environment than it did 
5 years ago, 10 years ago. Thank you.
    Mr. Scott. So what do you see the Chinese doing to counter 
that?
    Mr. Bush. I think that, first of all, China will respond 
slowly to major changes in its environment, so it will make up 
its own mind over the next few months. I think that there is a 
good chance that it will reduce and cut back on its 
relationship with North Korea. I think that there is the 
opportunity, incrementally, to bring them along to more robust 
sanctions more seriously implemented. China is facing a big 
test right now, how much they are willing to cooperate with the 
sanctions that Resolution 1874 dictated.
    We should keep in mind that China sees a domestic threat 
from a collapsing North Korea, but I think it will be possible 
to achieve a balance point between China's domestic concerns 
and its concerns about regional security.
    Mr. Scott. All right. I think one of you, I forget which 
one, I think it might have been you, Ambassador Hubbard, but 
one of you mentioned the possibility of an aggressive act from 
North Korea toward Japan. Who was--Mr. Harrison. That intrigued 
me. I would never have gone down that angle before. What gives 
you that conclusion? How did you come to that conclusion?
    Mr. Harrison. I did not say, sir, refer to an aggressive 
act toward Japan. What I said was that if, as a result of the 
attempts to implement the U.N. sanctions and forcing North 
Korean ships into port using our influence to get countries to 
let us board the ships, we end up in a cycle of escalation, 
that I think North Korea's retaliation in this situation would 
be to attack Japan or United States bases in Japan, not South 
Korea. I think that the danger of a war on the peninsula is 
small, but I think that if this implementation of the U.N. 
sanctions leads to an escalation, the place where North Korea 
would retaliate would be in Japan, and the reason--United 
States bases in Japan, in all likelihood.
    I think the reason is that, as I said in my testimony, 
North Korea's feelings that all Koreans have with respect to 
Japanese colonialism are much stronger these days in North 
Korea, are more and more manifest in North Korea, than in South 
Korea under its present leadership, and the nationalistic 
younger generals who have come to the fore during recent months 
in North Korea, which is why North Korea has hardened its 
position on denuclearization saying that it would have to come 
after the normalization of relations with the United States, 
not before, those younger generals are very anti-Japanese, and 
I have had indications on several of my recent visits to North 
Korea, the last two really, that I can't go into detail about, 
that when Kim Jong Il apologized to Prime Minister Koizumi in 
2002, this was a very sensitive matter inside North Korea.
    This was regarded as very unfortunate by many of the 
nationalistic younger generals and other generals and others in 
North Korea. Kim Jong Il found himself criticized in internal 
meetings in North Korea, so Japan is the hot button issue, and 
the Japanese failure to support, to provide the 200,000 tons of 
oil that they were supposed to provide in the last phases of 
the Six-Party Talks is one of the things that led to the 
hardening of the North Korean position and the strengthening, 
empowerment, if you will, of the hardliners in the leadership.
    This is history. This is Japanese colonialism was the 
biggest event in the history of Korea, and it impacts on the 
present situation in many ways.
    Mr. Scott. All right. Thank you, sir.
    Mr. Faleomavaega. Thank you.
    The gentleman from California, Mr. Royce, for his----
    Mr. Royce. Thank you.
    Mr. Faleomavaega. Something happened to the clock here. I 
think my good friend from Georgia had more than 5 minutes, so I 
will extend an extra minute to the gentleman from California. 
Let us make sure that this clock works now so that we don't 
have complaints from the members.
    Please, Mr. Royce.
    Mr. Royce. No complaints, Mr. Chairman. I didn't pick the 
panel and we don't have anybody from Treasury here. Treasury is 
the entity that really was bullish about freezing the accounts. 
It is interesting to me that there wasn't only mention from the 
witnesses about the successful effort at Banco Delta Asia. 
Banco Delta Asia, I think--and maybe it was just that because 
Treasury didn't take kindly to counterfeiting of $100 bills, 
but there is something about their enthusiasm there with which 
they went at shutting down the hard currency. Sanctioning the 
bank and cutting off the access to the regime, that is not 
shared by a lot of people who look at the situation in North 
Korea, or at least by our witnesses here.
    My question is, why not follow the route that Treasury is 
always trying to get the State Department to deploy? Why not go 
with what they felt worked, why not cut off access to that hard 
currency?
    [Pause.]
    Mr. Faleomavaega. I think it is to all of you members of 
the panel, if you can give it a good shot there. The bottom 
line, if I understand the gentleman's question, is very simple. 
We have identified that North Korea is famous for producing 
counterfeit money, and yet it seems that our Government doesn't 
seem to want to touch that issue. To that extent, why do we 
continue to allow North Korea to do this?
    Mr. Harrison. I commend to you the very excellent series 
based on a year of research that appeared in the McClatchy 
newspapers casting great doubt on this assumption that 
counterfeiting has been significant on the part of North Korea.
    Mr. Royce. Mr. Harrison, I have read it, but I have also 
talked with Treasury about it. They don't believe it. I have 
been in Macau and I have seen the $100 bills that come in from 
North Korea. I have seen the indication in terms of the effort 
they went to, to purchasing the ink and the rest of it. There 
is the fact that when we acted on it, we did get immediate 
results, and that is the thing that interests me most.
    We talk about getting Kim Jong Il back to the Six-Party 
Talks. The only thing I ever saw that got him to the talks was 
when we had his attention because he didn't have access to the 
hard currency. All of a sudden it was look, just get the State 
Department to lift this and I will be back at the talks. So I 
can think of one thing that actually worked. I went along with 
the 1994 framework agreement and I know your role in all of 
that and I appreciate all of the good attempts to try to get 
North Korea to the bargaining table. Yet every single time that 
I have thought that things were going swimmingly, I come to 
find afterwards that they are building a reactor in Syria. That 
the Indians are forcing back a plane that is proliferating to 
Iran.
    Right in the middle of the talks we have had that kind of 
duplicity. The only time we had their attention that I have 
seen is when we took Treasury's advice and did what they 
recommended and sanctioned those accounts and cut off the hard 
currency.
    Mr. Harrison. I don't think one can differ with you that 
the financial sanctions, not just Banco Delta Asia, but more 
importantly, the broader financial sanctions that we used 
against North Korean access to the international banking system 
undoubtedly had important effects and this is a very important 
weapon, but it seems to me we have to keep our eye on the ball. 
Capping the North Korean nuclear arsenal at its present level, 
which I believe they are prepared to negotiate, is much better 
than letting them go on enlarging it, and it seems to me that 
is simple realism and----
    Mr. Royce. I understand your argument about capping, but 
let me ask you about this.
    Mr. Harrison. So if we do go the route you are talking 
about, they are simply going to enlarge their nuclear arsenal. 
That is not in our interest.
    Mr. Royce. Okay, so you say the goal should be to cap North 
Korea's nuclear program at its existing level.
    Mr. Harrison. That is just the short-term goal.
    Mr. Royce. Right, but----
    Mr. Harrison. The long-term goal has to be to establish 
normal relations with them so that the present hardliners' 
position of dominance is offset by what I think would be a 
strengthened position with the many more moderate elements in 
leadership there that are now on the defensive internally.
    Mr. Royce. Given the past activity, what makes you think 
the program could be capped? I would ask you this and 
Ambassador Hubbard too in terms of capping. Given that that 
would be dependent upon some kind of inspection regime, and 
given the fact that North Korea resists any inspection regime, 
wouldn't the thought that we were capping be a delusion? 
Wouldn't we run the risk that the proliferation would still 
continue to the Middle East or wherever else North Korea 
decides to proliferate? We have got quite a record of their 
engagement from Pakistan to Iran, to Syria. So that would be my 
question on that assumption.
    Mr. Harrison. For 8 years, sir, we had inspectors from both 
the United States and the International Atomic Energy Agency 
carrying out their inspections as agreed in North Korea and we 
kept North Korea from developing any nuclear capabilities 
during those 8 years. I hope that Tom Hubbard would agree with 
me that the North Koreans observed their commitments with 
respect to inspections then.
    Mr. Royce. Maybe in North Korea, but what about the reactor 
that was being built in the middle of the Six-Party Talks in 
Syria? Or do we question whether that was happening or not? It 
seems to, to all of us on the panel, we believe that that 
happened. The hard evidence we have seen indicates that that is 
exactly what they were doing.
    Mr. Bush. Congressman Royce, I think the record of North 
Korean behavior over the last 6 months indicates that they are 
not interested in a negotiated solution, whatever incentives we 
offer. I said in my statement that I believe the Obama 
administration will implement the sanctions in a robust way. 
Those include financial sanctions, so I think your friends at 
Treasury will have a lot to do.
    Mr. Royce. Thank you, Mr. Chairman, and thank the panel.
    Mr. Faleomavaega. I thank the gentleman.
    The gentlelady from Texas, my good friend Ms. Jackson Lee, 
for her questions.
    Ms. Jackson Lee. Mr. Chairman, let me thank you very much 
for convening, along with our Subcommittee on Terrorism, 
Nonproliferation and Trade, this very crucial, vital and 
hopefully productive hearing. I would like to start by pleading 
and demanding for the release of two political prisoners, Mr. 
Lee and Ms. Ling. These are not the words of her family 
members, who have been gracious and respectful of this process 
and have been great Americans, but I think it is time now for 
those of us who have attempted to walk on eggs to call the 
abuse of process, the ludicrousness of the indictment or the 
offenses, what they are, ridiculous, outrageous, and clearly 
not a part of the community of world nations.
    North Korea should be called what it is, shameful. Ms. Ling 
and Ms. Lee have no argument, no conflict with North Korea or 
her people. If there was a violation in small measure of a 
boundary line, we apologize. Her family has apologized. My 
understanding is that Ms. Lee and Ms. Ling are not trained in 
the technology of border lines. They happen not to be experts 
on the fine points of a line drawn without presence and 
visibility. So if any of the people of North Korea are 
listening, then take mercy on individuals who are innocent and 
release them now.
    Soft talk and hesitant conversation is of no value, and I 
believe that this is not an issue of war, but it is an issue of 
strong, persistent demand that these two individuals, these 
women and family members need to be released. I believe that we 
should separate the two, and I want to pose my questions along 
the lines; I saw, Mr. Harrison, that you had been in the region 
in 1994 and had some previous negotiations on freezing nuclear 
capacity. What happened there, please? What happened to those 
preliminary agreements as I noted in your bio?
    Mr. Harrison. Well, the conversations that I had in June 
1994 led a week later to President Jimmy Carter's negotiating 
what evolved into the so-called Agreed Framework of October 
1994, and for 8 years, North Korea's nuclear weapons program 
was suspended.
    Ms. Jackson Lee. So what happened, sir? Why are we where we 
are today?
    Mr. Harrison. Well, we are where we are today because the 
Bush administration didn't like that agreement, felt that it 
was too soft on North Korea, that it involved giving things to 
North Korea in return for its suspension of its nuclear 
program----
    Ms. Jackson Lee. Well, we had a gap over that period of 
time in the Bush administration.
    Mr. Harrison. What do you say?
    Ms. Jackson Lee. We had a gap, we had a sort of missing 
activity----
    Mr. Harrison. No, the Bush administration abrogated the 
agreement of 1994 and created the present crisis we are in by 
doing so.
    Ms. Jackson Lee. And so your instructions for going forward 
today are, alongside of the two political prisoners that are 
there, what are your instructions for us now?
    Mr. Harrison. Well, at the beginning of my testimony, in 
case you missed it, I urged that Vice President Gore be 
encouraged to go to North Korea by this administration, and 
that they cooperate with him in facilitating the visit and in 
empowering him to carry on some meaningful discussions while he 
is there. You----
    Ms. Jackson Lee. Thank you, Mr.--my time is short. I thank 
you, and I did hear that. I just wanted to make sure that was 
it.
    Mr. Bush, do you think that structure would work, and what 
do we do with China and Japan? I heard the testimony of I think 
Mr. Harrison mentioning, someone mentioned that Japan did not 
follow through on its commitment dealing with energy resources. 
We seem to have this constant breaking of promises. I am 
concerned, one, about where we are, but two, that we have the 
North Korean people who live in starvation and then the idea of 
trying to address this world crisis.
    Do we need to now immediately send an envoy, and what do we 
do about Japan's inertia and China's inertia?
    Mr. Bush. Congresswoman, I would note that Ambassador Tom 
Hubbard has some experience himself in getting people out of 
North Korea, so he might shed some light.
    Ms. Jackson Lee. I thank you for that, and if the chairman 
indulges me, I would like him to answer. Thank you.
    Mr. Bush. I would not have former Vice President Gore go 
unless it was absolutely certain that the young women were 
going to be released. To send him out without clarity on that 
point would put the United States in a very bad position. As I 
suggested previously to Congressman Scott, I think that working 
with China will be an incremental process as they understand 
more clearly the threat that North Korea poses to them and the 
need to take action to deal with it.
    Japan, as we have indicated, has its own concerns, but the 
administration is working very closely with Japan and with 
South Korea to have a united front against North Korea. So I am 
hopeful that whatever problems may have existed in the past can 
be dissolved in the future.
    Ms. Jackson Lee. Do we send anyone to the region? Maybe 
they can go to Japan, maybe they can go to China? We have 
people going to the region?
    Mr. Bush. We had the President's Special Representative on 
North Korea in the region in February. It was made clear that 
he was willing to go to Pyongyang, but not under the threat of 
a missile launch, and the North Koreans spurned the offer. We 
had diplomats in the region not too long ago. I think the main 
problem is that North Korea is taking a hard line on the women 
as it is taking on just about every other issue.
    Ms. Jackson Lee. Can Ambassador Hubbard, can you quickly 
answer that last question that Mr. Bush thought you might be 
able to contribute to regarding the ladies and their posture at 
this point?
    Ambassador Hubbard. If the chairman will indulge me about 1 
minute for a little history, in 1994, one of our U.S. military 
helicopters with two American warrant officers on board strayed 
accidentally into North Korea and was shot down by the North 
Korean military. One of the warrant officers was killed in the 
air. The other was taken captive by the North Koreans, and it 
so happened that former Congressman Bill Richardson was flying 
from Beijing to Pyongyang even at that moment, and for a week 
or so he worked on trying to gain the release of the remains of 
the dead one and the live prisoner.
    He succeeded in getting the remains, but by the time he 
left, he had not succeeded in persuading the North Koreans to 
give up the captive, so I was suddenly, the North Koreans, 
through their office in New York, suddenly asked if we would 
send a senior envoy to North Korea and they thought they could 
arrange the release if we did so, and so I was chosen as that 
envoy. I went on very short notice into North Korea, and 
successfully within 48 hours got the young warrant officer out.
    I think there were several keys to our ability to do that. 
One was our willingness to send an envoy. I was the first 
senior U.S. Government official ever to be sent as an envoy to 
North Korea. Two, I went with some facts, that I was able to 
explain how this happened and what the equipment they had on 
board was. Three, I was willing to express regrets that our 
helicopter had accidentally strayed into North Korean 
territory. We recognized their sovereignty in that way, and I 
think finally I was able to make the point to them that we had 
just signed this Agreed Framework, this nuclear agreement, and 
that they wanted a close relationship with the United States, 
you know, taking this military person prisoner was equivalent 
to a hostage situation and that was incompatible with a close 
relationship with the United States.
    I think that argument worked then because, as I said in my 
testimony, the North Koreans then wanted a close relationship 
with the United States. I am not sure that same logic would 
prevail now, given what we have seen recently, but I do think 
some of the other elements are appropriate. I do think we 
should send an envoy. I think we should keep this completely 
separate from the ongoing nuclear talks, as I did in 1994, and 
of course, we should be willing to express our regrets and 
apologies, which the families have already done.
    Mr. Faleomavaega. I thank the gentlelady for----
    Ms. Jackson Lee. I thank the gentleman for his indulgence, 
Mr. Chairman.
    Mr. Faleomavaega [continuing]. Her questions and certainly 
join her, and I am sure that this is also the sentiment of the 
members of this committee, as well as the members of the House, 
concerning the safety and welfare of Ms. Lee and Ms. Ling, and 
I sincerely hope that we will find a solution or a method or 
some way to negotiate with the officials from North Korea and 
find a way we can get them back.
    The gentleman from Arkansas, Mr. Boozman, for his line of 
questions.
    Mr. Boozman. Thank you, Mr. Chairman. I was at a meeting 
not too long ago where a very high level food person from the 
U.N. was there and she made the statement that the North 
Koreans were about 10 inches shorter than they should be 
because of malnutrition. I was with another individual that is 
very familiar with North Korea that said that currently in some 
areas, they actually practice cannibalism, that you have 
problems burying your loved ones for fear that somebody is 
going to dig them up and eat them.
    I guess in dealing with a regime like this and trying to 
use the same value systems trying to negotiate in good faith, 
it really does seem very, very difficult and I think some of 
the solutions that I have heard in the past in hearing, again, 
you know, it is not like we are dealing with rational people. 
Mr. Harrison, your critique of the fact that we are in the 
situation that we are here with our present problems based on 
the Bush administration I really think is simplistic at best.
    I think there are a tremendous amount of factors going on, 
and again, to blow it off that way, like I say, is simplistic. 
Can you all comment in that regard, as far as the fact that we 
have got a situation where we have got a leadership that is 
willing to put their people through this, and then again, to 
try and negotiate with a regime like this, how do you do that? 
How do you do it in good faith and really know at all how they 
are thinking, how they are going to react, or whatever?
    I know it is a very broad question, but----
    [Pause.]
    Mr. Harrison. Are you addressing me, sir?
    Mr. Boozman. I am addressing anybody that wants to comment.
    Mr. Harrison. I just want to ask you whether you 
acknowledge that from October 1994 until December 2002, we did 
succeed in suspending North Korea's production of fissile 
material and we did not have the situation that we have now. I 
think it would certainly be simplistic to say that there aren't 
other factors that contributed to the immediate situation we 
face right now. Certainly the altered internal balance of 
forces in North Korea in which hard-line generals have become 
much more powerful since the illness of Kim Jong Il is 
certainly, in my view, the main reason for the immediate 
tactics that North Korea has been pursuing lately, but I don't 
think it is simplistic to say that the abrogation of the Agreed 
Framework which had suspended nuclear weapons production for 8 
years is what set in motion the train of events that has taken 
us to where we are today.
    Mr. Boozman. I would say that, again, the people, getting 
in a situation where they are 10 inches shorter, all of the 
things that have gone on in that regard have not just all of a 
sudden happened over the last 8 years. The North Koreans' 
willingness to share their nuclear secrets has not just 
happened over the last 8 years. I just don't believe that. Does 
anybody else want to comment? The other thing too is, at this 
point, at what point does it become, and I say this not, again, 
this is such a huge problem.
    I mean, this is not a partisan issue. This is something 
that all of us need to worry about on almost an hourly basis. 
This is a huge problem, but we do have a new administration 
now, and I support their efforts in North Korea, and I don't 
see that things are changing very rapidly right now, although 
my hope and prayer and my efforts are that we need to work 
together to get this done, and I just, again, I don't mean to 
be picking on you, but I just don't see that those kind of 
comments and that kind of blame is helpful.
    Do any of the rest of you all want to comment on the----
    Mr. Snyder. Mr. Chairman, let me take a stab at this. I 
don't know of any U.S. Government official who has gone to 
negotiations with North Korea thinking that it was going to be 
based on good faith, and I think that the prior record further 
underscores the folly of that position, but there are things 
that can make negotiations more likely to be successful. One is 
for them to be backed up by pressure. We haven't necessarily 
done that in the past very well.
    Another is to incorporate an element of irreversibility 
into the process, and I think that that is a major focus of the 
current administration. And then I just want to mention that a 
final sticking point in this area is really related to the 
challenge of verification, which the North Koreans have in many 
cases defined as a threat to their sovereignty, and so I think 
that that might actually be the biggest sticking point in terms 
of moving forward successfully down a negotiation path.
    Mr. Boozman. Thank you, Mr. Chairman.
    I appreciate your testimony.
    Mr. Faleomavaega. I thank the gentleman from Arkansas. I 
have a question, maybe somewhat simplistic in my view, but I 
want to raise the question, how do we go about in trying to 
denuclearize North Korea when it is already a nuclear power? It 
has six nuclear bombs in its possession. Have we demanded the 
same of Pakistan, of India, or of other countries potentially 
who possess nuclear weapons? So what is the basis of how we are 
doing this?
    We are telling North Korea, denuclearize, when they already 
have nuclear bombs. I would like to ask Mr. Harrison, the fact 
that you have been at this business for 58 years, and probably 
one of the few people in the Washington establishment who has 
visited North Korea personally 11 times, kind of gives me a 
little basis of asking for your sense of understanding and 
knowing the nature of how North Koreans, officials as well as 
the people, act or react to the given situation that we are 
faced with now.
    Mr. Harrison. I think your comments are very well taken. It 
seems to me that what is hard for Americans to accept, since we 
think we are the good guys and other people are often the bad 
guys, is that North Korea is afraid of us, and I don't know 
that I--I mean, and I think that within North Korea, there are 
different elements in the leadership, some of whom are more 
rational in assessing whether we really are a threat to them or 
not, but as their collectivity, the North Korean leadership and 
the people believe that they are threatened by the American 
nuclear weapons that surround them in the Pacific, and the fact 
that we took out our tactical nuclear weapons from South Korea 
hasn't ended that perception.
    So what you get, I think, when you go there that you can't 
get if you don't go there a lot is the fact that this is real, 
this is not a contrived posture, and therefore, they have moved 
steadily, as the nationalistic younger generals, I have 
emphasized, have moved into more powerful positions internally, 
into the belief that they have to have a nuclear weapons 
capability and therefore I think you are right, we face that as 
a fact now.
    But at the same time, they haven't ruled out that if they 
come to feel, 5 years from now, 10 years from now, that we are 
not a threat to them, that we have moved into normal relations, 
and I might add to the gentleman from Arkansas, use those 
normal relations--I think he has left me, but--to open up the 
regime so that the things he has talked about are diminished by 
the winds of freedom blowing in there, I think that, you know, 
arms control agreements in which they phase out their nuclear 
weapons, if we are prepared to give up the right of nuclear 
first use, which we won't give up, if we are prepared to carry 
out Article Three Section One of the Agreed Framework, in 
conjunction with denuclearization--I don't think it is an 
impossible dream, but you are right. We face the fact right 
now. We have got to live with that, and that is why I think 
capping is the real security objective of the United States.
    Five nuclear weapons is much better than 50.
    Mr. Faleomavaega. There seems to be a disconnect here. The 
fact that for the 8-year period when we had that framework 
agreement from 1994, and of course, the commitment, or at least 
the allegation that was made by the Bush administration was 
that North Korea cheated, and I wanted to ask the members of 
the panel, did they really? I seem to get different answers at 
this point, and the same reason why in 2007, I think, North 
Korea made its commitments and then we moved the goalposts by 
saying, well, you have got to verify.
    And I just am curious if we could have been wrong on both 
sides on how this whole negotiation came about.
    Mr. Hubbard?
    Ambassador Hubbard. Thank you, Mr. Chairman. As the Deputy 
Negotiator of that 1994 agreement, I think I perhaps know the 
agreement as well as anybody in the room, and I do think it was 
a good agreement, the best we could get at the time. It indeed 
did impose a verified freeze on the North Korean production of 
plutonium and fissile material through that method for 8 years, 
and I think it was a substantial achievement. What it didn't 
adequately cover, did not give us the ability to verify whether 
they were working on other nuclear programs somewhere else, and 
that is where the suspicion that they were working on----
    Mr. Faleomavaega. But for which they perfectly had the 
right to do so, because it was not part of the agreement.
    Ambassador Hubbard. That is one of the reasons I wanted to 
speak up before my colleague, Mr. Harrison, did. The agreement 
actually explicitly covered uranium enrichment activity through 
its reference to the North-South denuclearization agreement of 
1992, in which the two Koreas forswore any intention to carry 
out uranium enrichment, and the North Koreans acknowledged that 
during the negotiations, so I feel very firmly that they did 
cheat.
    Now, whether that element of cheating was worth throwing 
out the whole agreement, throwing out the baby with the bath 
water, as the Bush administration did, is another matter, but 
getting back to where we started on this, I think we have, Mr. 
Chairman, we have tried a freeze, and we managed to impose that 
on the plutonium program. Later we tried disablement through 
the Six-Party Talks and, you know, that disablement proved to 
be much more short-lived than we hoped and did not carry with 
it the kind of verification we wanted.
    Now, Mr. Harrison and others are talking about a cap, and 
it seems to me that is just a progression. Freeze, disablement, 
cap, it is not really valid unless you have the kind of 
verification that the North Koreans are very loathe to provide, 
and that is the core of the problem that we----
    Mr. Faleomavaega. I am sorry. My time is up. I am going to 
wait for the second round.
    The gentleman from California, chairman of our Subcommittee 
on Terrorism, Nonproliferation and Trade?
    Mr. Sherman. I would point out that obviously it would be 
preferable not to incorporate by reference when you are dealing 
with negotiating with North Korea the State Department's modus 
operandi is to conclude vague agreements and then announce 
success and then tell Congress they are doing a great job. I 
would like to just get down to the economic realities of North 
Korea, and I don't know which of you will have the answers to 
this, but can any of you tell me, what is the total value of 
North Korean exports in 2008, 2007, 2006?
    Mr. Snyder. I believe it was in the $3.5-4 billion range, 
$3-4 billion----
    Mr. Sherman. And what is the total----
    Mr. Snyder. That is total trade, I am sorry.
    Mr. Sherman. That is total in and out, or just out?
    Mr. Snyder. Yeah, in and out.
    Mr. Sherman. Okay. So, does anybody know the value of the 
exports?
    Mr. Snyder. It is about $1.5 billion.
    Mr. Sherman. $1.5 billion, but for some reason the rest of 
the world sends, just in trade, more than $1.5 billion. Is that 
because people loan money to North Korea? I thought the 
subprime thing was a scam, but who is loaning money to North 
Korea?
    Mr. Snyder. In particular in the China-DPRK economic 
relationship, there is a structural deficit----
    Mr. Sherman. Okay, so we have the structural deficit that 
means loans from----
    Mr. Snyder. Yes.
    Mr. Sherman. Of course, they do that for us as well. So one 
way in which China subsidizes North Korea is to run a trade 
deficit and to lend money to North Korea. What is the value of 
the subsidies-free wheat, free oil that China gives each year?
    Mr. Snyder. Aid figures from China to North Korea are not 
publicly available. What Chinese scholars will say is that it 
runs about two-fifths of their overall development assistance 
to the rest of the world.
    Mr. Sherman. So do the math for me.
    Mr. Snyder. Well, the problem is that I don't know what the 
overall figure is because it is classified by the Chinese.
    Mr. Sherman. Well, what is the best U.S. estimate from the 
four experts here as to what the number would be?
    Mr. Snyder. I would say at least a few hundreds of millions 
of dollars, at a minimum.
    Mr. Sherman. Well, I would have hoped that people who focus 
on these issues would ask the question, to what degree is North 
Korea dependent upon the largesse of China? Do any of you have 
a numerical answer to that, or--Mr. Bush?
    Mr. Bush. I can give you a qualitative answer.
    Mr. Sherman. Okay.
    Mr. Bush. If China decided to impose a total trade, 
investment and aid embargo, they would probably bring North 
Korea down, but China has for years had a concern that if they 
do that, it has an effect----
    Mr. Sherman. Yeah, I am aware of that. They could threaten 
to do it, they could hint to do it, or instead of bringing 
North Korea down, they could make it a little more difficult 
for the North Korean regime, put them in a position where they 
didn't have quite so much resources in 2009 as 2008, but it 
wasn't quite regime-threatening.
    Mr. Bush. Well, in the current circumstance, they may. We 
will see. I would reserve judgment on how China is going to 
respond----
    Mr. Sherman. But so far, they haven't, and nothing that 
North Korea has done in the last 6 months should have been a 
surprise to anybody in Beijing. They are just being North 
Korea, and so the Chinese, when they sent the money in 2008, 
they knew what they were getting in North Korea in 2009. Is 
there anything North Korea has done that is a real shock to 
China, or is there anything about Japanese or South Korean 
reaction or American reaction that--is there anything that has 
happened on this issue that would have been a shock if somebody 
put it forward at a think tank in Beijing 12 months ago?
    Mr. Bush. I think if you had said 12 months ago that North 
Korea was going to test in April 2009 a missile and nuclear 
weapon in May, the majority opinion would have been no, they 
are not.
    Mr. Sherman. Majority opinion, I mean, yes, but----
    Mr. Bush. Well, no, I think that----
    Mr. Sherman. But, I mean, they had already tested a nuclear 
weapon, they had already tested missiles, so now they have got 
a bigger nuclear test and a bigger missile. It is----
    Mr. Bush. Well, as I suggested in my testimony, this has 
led the Chinese Government and Chinese scholars and security 
experts to come very recently to a different definition of the 
situation.
    Mr. Sherman. I----
    Mr. Bush. I am reporting what I hear, Congressman, and I 
think it is significant----
    Mr. Sherman. Okay, yeah. I mean, what you are reporting is 
that they would like America to just let the status quo 
continue and so in order to do that, they will make a few 
noises that will make us think that they are kind of moving, 
while we have been playing this game for a decade.
    I realize we have several people who are experts in China. 
For many decades, it has been the United States that has 
prevented Taiwan from developing a nuclear weapon while China 
has carried out pro-proliferation policies in many parts of the 
world. Does China just take it for granted that we will 
continue to prevent Taiwan from developing a nuclear weapon?
    Mr. Bush. I think China probably does. I think China also 
believes that the current leadership in Taiwan would not see 
nuclear weapons as a way to guarantee the island's fundamental 
security.
    Mr. Sherman. Yes, they are going to rely on American 
taxpayers putting a huge fleet out there, which may be true 
this decade, may not be true the decades to follow. Taiwan's 
idea of assuring its independence is to have the American 
military do it for them at our expense. I am not sure that 
continues to work. What about Japan? Do you China genuinely 
concerned that Japan will develop nuclear weapons as a direct 
result of North Korea's actions?
    Mr. Bush. Yes, I think there is some concern.
    Mr. Sherman. Some concern?
    Mr. Bush. Yes. No, I mean, I think----
    Mr. Sherman. Mr. Harrison?
    Mr. Harrison. Well, I just wanted to add something based--
contribute what I have heard in some very interesting 
conversations in Pyongyang. They are very unhappy at the degree 
of dependence that they have reluctantly had to incur on China, 
letting them take out their best mineral resources by the 
truckload, and that is why the more moderate elements there 
have wanted to have a real relationship with the United States 
and to normalize with the United States, to offset this 
dependence on China.
    I think we would be very naive in thinking that China is 
going to help us in putting the squeeze on North Korea. China 
wants to subsidize North Korea, wants----
    Mr. Sherman. Well, let me just----
    Mr. Harrison. Yeah, they want to make sure we don't have a 
unified Korea in which we have bases.
    Mr. Sherman. One final question, my time is about to 
expire, or has expired, and that is, the last administration 
refused to offer a nonaggression pact to North Korea. How 
important is it to the North Koreans that they get an official, 
conventional, old-style nonaggression pact from the United 
States?
    Mr. Harrison. They want nuclear assurances, not a 
nonaggression pact. They want us to say that we will not use 
nuclear weapons in a way that is binding upon us.
    Mr. Sherman. The U.S. has already committed to that. You 
would think we would put it in writing a second time, having 
already put it in writing a first time. I am shocked that we--
--
    Mr. Harrison. Well, no, they don't think that relates to 
them.
    Mr. Sherman. I am happy to send them a copy of our 
declaration with a new signature, but then again, they don't 
want my signature.
    I yield back.
    Mr. Faleomavaega. One of the ironies I wanted to raise with 
the gentleman that I do recognize.
    We have another distinguished member of our committee here 
with us, Mr. McMahon from New York. We will give you your 5 
minutes to----
    Mr. McMahon. Thank you, Mr. Chairman.
    Mr. Faleomavaega. Sure.
    Mr. McMahon. Thank you for holding jointly this very 
important committee meeting----
    Mr. Faleomavaega. Just one note before Mr. McMahon makes 
his statement--the irony of this thing about written 
affirmations. I believe it is reasonable to suggest that North 
Korea wants a written affirmation from the United States that 
we will never use nuclear weapons against them. And one of the 
ironies is that this is an effort on the part of President Lee 
of South Korea who is seeking a written affirmation from us 
that we would use nuclear weapons as a deterrence, or as an 
umbrella, to protect South Korea's interests, so we have got a 
little contradiction here in terms of what we are trying to do, 
but just as a matter of note.
    The gentleman from New York.
    Mr. McMahon. Thank you, Chairman Faleomavaega, and again, 
thank you for holding this hearing jointly with Chairman 
Sherman on this very important topic. Gentlemen, one of the 
great concerns, I think, and I don't know if this was touched 
on earlier, is North Korea's nuclear collaboration with Iran 
and Syria, and of course, that is completely unacceptable and 
raises this issue of nuclear proliferation. Could you touch on 
the status of that and how much of a threat we see that as and 
what America and the rest of its allies should be doing?
    Mr. Snyder. You know, that is a very serious issue and 
clearly there needs to be as much attention as possible in the 
intelligence community directed to trying to discover those 
possible ties. There certainly have been rumors about them. It 
seems to me that to a certain extent, China comes into focus 
here simply because of its location, and under the U.N. 
Security Council resolution, if air cargo suspected of 
transporting that type of material is detected, then the 
Chinese are supposed to be inspecting that cargo at this stage.
    So this is going to be one of the areas where I think 
China's really going to be put to the test in terms of their 
seriousness related to implementation of the new resolution.
    Mr. McMahon. But, I mean, how serious is it that--I know 
that in Syria when the Israelis bombed there was--attacked a 
site there, there seemed to be evidence that North Korea had 
been very much involved with proliferation in that particular 
site. Could you expound, I mean, how serious of a threat is 
this, how wide or how active has the proliferation been, and 
how much of a threat do you see this as to, certainly to 
Israel, and to the rest of our allies in that area in the 
Middle East and certainly in the rest of the world?
    Ambassador Hubbard. Again, I am not, I have been out of 
government some time so I can't really purport to be a real 
expert on the subject, but I think in the case of Syria, you 
know, the North Koreans were caught red-handed having built a 
nuclear facility that looks very much like their nuclear 
facility in Yongbyon. I don't think there were clear 
indications, although again, I was out of government when this 
happened, I think there were no signs of actual transfer of 
fissile material, the material needed to make those plants 
operate, but they built a plant.
    I think the evidence of cooperation with Iran on nuclear 
issues is somewhat less clear. It seems there may have been 
some collaboration in both directions at different times on 
different kinds of programs, but suffice it to say that I share 
this administration's view that the threat of proliferation is 
the single most dangerous part of this very dangerous problem, 
and therefore, much of the U.N. resolution calling for 
sanctions and other measures, interdiction and other measures, 
is aimed directly at trying to stop the possibility of 
proliferation.
    Mr. McMahon. Thank you.
    Thank you, Mr. Chairman. I yield the remainder of my time.
    Mr. Faleomavaega. Thank you. I do have some more questions 
I want to share--Mr. Harrison, you had made a comment, or maybe 
I will preface my remarks by saying that I have been one of the 
strongest supporters of former President Kim Dae-jung's 
Sunshine Policy as it has been his aspiration and dream that 
one day the Korean people will be reunited. For the record, I 
would like to ask you gentlemen for your sense of expertise on 
how Korea became divided the way it is now.
    Who divided the Korean people like this? I talk to the 
South Koreans, they do not like it, the fact that it has 
separated millions of families. To this day, there is still a 
lot of pain and suffering even among our Korean-American 
community. I just wanted a sense of history for the record. Who 
divided Korea the way that it is now?
    Mr. Harrison. Well, as the Reverend Billy Graham said, and 
I quoted him in my testimony, Korea was a victim of the Cold 
War. Russia and the United States divided Korea for expedient 
reasons at that time.
    Mr. Faleomavaega. And by that division, do you think, is 
there any relevance for the Sunshine Policy given the tensions 
that now exist in the Korean Peninsula? Is that a dead issue?
    Mr. Harrison. Well, it certainly isn't a dead issue. I 
think one of the very most important reasons why the hardliners 
in North Korea have become empowered in recent months is the 
fact that the agreements made by Kim Dae-jung and his 
successor, the late Roh Moo-hyun, regarding coexistence between 
North and South Korea were repudiated when Lee Mung-bak became 
the President, and a perception of North Korea is that the 
elements in South Korea favoring unification through a collapse 
of the North Korean regime are now dominant in the South, and 
this has greatly strengthened the hardliners in North Korea and 
it is a combination of that factor and the pressure tactics of 
the new administration in Washington have empowered the 
hardliners in North Korea.
    So I think what Kim Dae-jung set in motion has to be, is in 
fact what the two, North and South, have agreed on, and that is 
why I suggested in my testimony that President Obama should 
make clear that the United States supports the vision of a 
confederation and eventual peaceful reunification in those two 
summit agreements.
    Mr. Faleomavaega. Ambassador Hubbard, you made the 
statement that we must not recognize North Korea as a nuclear 
power. Does that have the same sequence as to how Pakistan 
becomes a nuclear power as well? Of course, we come right back 
to the question of nonproliferation, and this question has been 
asked how many times now? Why is it that the five permanent 
members of the Security Council continue to have in their 
possession a total of probably 10,000 nuclear weapons right 
now, and the rest of the world cannot? Can you respond to that?
    Ambassador Hubbard. Well, in fact, President Obama has 
called for a world without nuclear weapons and repeated that 
call yesterday in his joint press conference with President 
Lee. Obviously, a lot of conditions have to be satisfied before 
we can get to that world, but I do think the threat that North 
Korea poses to the world through its nuclear programs, and for 
that matter the threat that Iran poses the world, is quite a 
different qualitative threat than what we see with the Indian 
programs and the Pakistani programs.
    I think we have some sense of whom those programs are aimed 
at, and it starts right there in the individual protagonists. 
In the case of North Korea, I think we have a very different 
view of whom that program is aimed at, and it begins with us 
and our closest allies in Northeast Asia and it also entails a 
proliferation risk that we saw to a certain degree in the case 
of Pakistan and have tried to put a stop to, but I think that 
goes beyond that posed by some of these other countries.
    So I think we should not accept North Korea as a nuclear 
power, even capped. We may not achieve denuclearization for a 
while, but I think it is very important to our allies in the 
region and to our own security that we keep working at it 
vigorously through both pressure and dialogue.
    Mr. Faleomavaega. Mr. Snyder, you had given an indication 
in your testimony concerning the Six-Party Talks in terms of 
how great this idea has been to negotiate with North Korea, and 
I am just curious, how is it that the Bush administration came 
out in establishing the Six-Party Talks as the means to 
negotiate with North Korea? The fact that now the Japanese are 
demanding the abductees that the North Koreans had been to is 
somewhat of a contradiction because it has nothing to do with 
denuclearization of Korea.
    One of the added problems too is the fact that when you 
talk about abductions and kidnapping, the Japanese kidnapped 
and abducted over 200,000 Asian women, mostly Koreans, forced 
them into prostitution, and they were raped and 
institutionalized by the highest echelons of the Imperial Army 
of Japan during World War II. So I am getting a little confused 
here in terms that while Japan is making a demand for North 
Korea to return these abductees, and has a very valid reason 
for doing so, when you think about it, what Mr. Harrison said 
earlier, there is still a lot of bitterness existing between 
the Korean people and Japan after being a former colony of 
Japan before and during World War II.
    But I just wanted to ask, is there still relevance for the 
Six-Party Talks the way it is--and I assume the Obama 
administration is going to continue to take on that line, 
because it seems to me that originally, North Korea just wanted 
to negotiate with the United States to deal with the actual 
issues, not bringing in China, Russia and Japan into the fold, 
but I just wanted to ask your comment on that.
    Mr. Snyder. Well, my own view on this is that it has become 
clear that even if the United States were to make a bilateral 
agreement with North Korea, it is not going to be sustainable 
in terms of implementation in and of itself. Even the Agreed 
Framework in 1994 required regional participation, and so I 
think that what the Bush administration did was to, in this 
case, adapt an idea that was consistent with the reality of the 
need in the context of addressing this issue.
    As I indicated in my testimony, I believe that at this 
stage, one reason why the Six-Party Talks framework is really 
critical is that it has become a symbol of commitment to 
denuclearization, and so if the United States backs away from 
that particular venue, Japan, South Korea, China, are all going 
to take it as a symbol that the United States is accepting 
North Korea as a nuclear state. I think that one difference 
between North Korea and the other nuclear weapons states that 
we have been talking about this morning is that the regional 
security context makes the idea of North Korea as a nuclear 
weapons state a game changer, as Richard Bush said in his 
comments.
    Mr. Faleomavaega. Mr. Bush? A quick response and I will 
turn the time over to----
    Mr. Bush. Yes, I think that part of the Japanese position 
is related to a prior general commitment on Japan's part that 
when denuclearization comes, Japan will provide large amounts 
of aid in implicit compensation for its colonial rule. Given 
the state of Japanese politics now, it might be very difficult 
to get that aid package through the Diet if the abductee issue 
was still outstanding, and so it may be a good thing that Japan 
is pushing this.
    As you say, it is not directly related to nuclear weapons, 
but it is related to the larger package for solving the nuclear 
problem.
    Mr. Faleomavaega. We are joined this morning by my good 
friend and former U.S. Ambassador to the Federated States of 
Micronesia, my dear friend, Congresswoman from California, Ms. 
Watson, for her questions.
    Ms. Watson. Mr. Chairman, thank you so much for this 
hearing. I am sorry I missed most of it, and so I would like to 
throw a fundamental question out to you, and respond if you 
will. We hear a lot about the Six-Party Talks. Do you believe 
that North Korea will come to those talks and be a 
participating member? Also, who has the biggest influence? Is 
it China or is it Japan, and are they feeding them the weapons 
and what is needed to start to nuclearize?
    And then, the last thing I would like to know, apparently, 
in yesterday's London Times, some believe that Kim Jong Il will 
first ratchet tensions with the outside world upward to their 
absolute limit, but then allow his son to take credit for 
offering the concession that calms everything down, and the 
article went on to say that the younger Kim will be then 
presented as the man who saved North Korea from war with the 
United States, and so can you comment on that, and seeing how 
the world knows so little about the son, how do you respond to 
the claim made in the Times article and what strategic steps do 
you see us as the U.S. taking to build a relationship with the 
younger Kim? So take a stab at it, anyone.
    Mr. Bush. Congresswoman, the article you cite presents very 
interesting speculation. As you probably know, we know actually 
very little about what goes on in North Korea and the 
motivations of the leaders, so it could be as valuable as any. 
On the Six-Party Talks, it was my testimony that North Korea, 
at least for the foreseeable future, has abandoned the basic 
goal and premise of the Six-Party Talks. The goal is 
denuclearization and the premise is that if we could provide 
the right set of incentives to North Korea, that it would give 
up its nuclear weapons.
    I don't think that that premise exists anymore. That will 
be the case until Kim Jong Il passes from the scene and a 
succession arrangement is put in place or is established and 
consolidated. That will continue to be the situation and the 
Six-Party Talks will be in abeyance. That is too bad, but they 
don't appear to want to negotiate their way out of this 
situation.
    Ms. Watson. Mr. Snyder?
    Mr. Snyder. I think that one of the underlying assumptions 
behind a Six-Party process is that this is an issue that is not 
solely a United States responsibility, but that it is a 
collective responsibility, and so it seems to me, I don't know 
exactly when or how or whether the North Koreans will come back 
to talks, but the necessity of regional cooperation on the 
basis of the idea of that kind of collective responsibility, it 
seems to me, is going to be absolutely critical in terms of 
making progress in achieving the goal of a stable Korean 
Peninsula and a denuclearized Korean Peninsula, and so that I 
think is really the focus that we have to, you know, keep our 
eye on.
    Ms. Watson. Ambassador?
    Ambassador Hubbard. Glad to see you again, Ambassador 
Watson. I agree with what both of my colleagues have said. One, 
I don't think the North Koreans are going to be prepared to 
come back to Six-Party Talks anytime soon and that it may be 
only after they have gone through this leadership transition 
that they are prepared again to sit down in a Six-Party 
framework. I do agree with Scott Snyder that it is very 
important, however, that we keep the concept alive.
    The North Koreans may have given up, at least for now, the 
concept of denuclearization, which is the purpose of the Six-
Party Talks, but I don't think the other five parties in the 
Six-Party Talks have given up that concept, and in part to keep 
that concept alive and in addition, in order to keep 
constructive cooperation going, I think the framework is very 
important. We saw the Six-Party framework working very well at 
the U.N. last week with the other five parties working very 
closely with the other permanent members of the Security 
Council to put together a very strong set of measures and I 
think whether the five parties sit down together and meet as 
five parties or whether we continue this kind of ad hoc 
cooperation, bilaterally, trilaterally and other ways, I think 
it is very important that we keep the Six-Party process alive.
    Ms. Watson. It is my interpretation of what has been 
happening in the last few weeks that they really are playing 
us, and I do believe that Kim Jong Il is ill, and I do believe 
he is getting ready to pass it on. He wants the power, he wants 
the recognition, and as long as you continue to ignore us, we 
are going to continue to get your attention, and I would hope 
that we would not fall into thinking that we have to move 
aggressively. I would hope that we would continue to push the 
other parties, the other five parties, into trying to respond 
to the threat of North Korea.
    I met with the South Korean President yesterday, and I am 
leading the Exchange sometime toward the end of the year. I am 
trying to put it off as far as I can because I want to see the 
fallout from all of this and what the U.N. is willing to do. I 
don't want us to be pulled into any kind of aggressive action, 
like we were pulled into Iraq. It is just really important that 
we share this responsibility across the other five parties, and 
so, if you have any insight as to what the White House is 
feeling about all this, can you share it with us now?
    Mr. Harrison. I welcome your plea for restraint. We just 
should keep in mind that North Korea has had a basic change of 
policy that is going to continue, whatever happens to Kim Jong 
Il's health. It is a new consensus in a leadership in which the 
balance of forces has shifted to hardliners being stronger than 
they were before. That changes--from 1994 until January of this 
year, North Korea was committed to the policy that it would 
negotiate for denuclearization leading to normalization of 
relations with the United States, which is their basic goal. 
That is what they want.
    They have changed their policy. We have got to face that 
fact. Now their policy is they will not denuclearize until 
after they have normalized relations with the United States, so 
we are just talking into the air, losing sight of our real 
security objectives if we talk about complete denuclearization 
of North Korea as the immediate goal. The immediate goal has to 
be to cap their nuclear arsenal so that it doesn't become 
larger and larger with better and better warheads, and then 
work for better relations with North Korea simultaneously, at 
which time, we hope that that new atmosphere will lead to saner 
leadership which is prepared to pursue again denuclearization.
    The Six-Party Talks, as Scott Snyder said, have been very 
valuable because we need the participation of some of the 
regional powers. The problem with them is Japan has been trying 
to torpedo them because Japan is led by right-wing elements who 
don't share, who really are very happy to have North Korea as 
something they can demonize to justify some of their own 
attempts to militarize and to prepare for nuclear weapons. 
Don't forget that when we talk about the consequences of all of 
this leading to Japan going nuclear, that is all very true.
    That is why we have all worked for a denuclearized North 
Korea, but don't forget that Mr. Taro Aso, when he was Foreign 
Minister said it was time for Japan to have a debate on whether 
or not to have nuclear weapons, so the taboo that had existed 
from Hiroshima has been repudiated by the present Prime 
Minister of Japan. So I think that Japan's role in the Six-
Party Talks hasn't been helpful and that is the problem with 
the Six-Party Talks, but certainly the multilateral 
negotiations in which South Korea and China and Russia are 
involved, and eventually hopefully Japan, should be our 
ultimate goal, but it has got to start with bilateral 
negotiations.
    Ms. Watson. I couldn't agree with you more, and I am 
thinking of the old adage that is used in the community. If you 
call yourself a leader and no one is following you, you are 
just a man out taking a walk. So I would hope that we would 
never again without provocation go out there on our own. That 
is why I mentioned the six parties, the other five parties. We 
cannot do this unilaterally, and you just said that. We have 
got to--we are not in their neighborhood, but we can probably 
be reached over the water eventually, so what we want to do is 
let those in the neighborhood know that that is their problem, 
even if we are the focus, and I don't want them to lure us into 
an action unilaterally.
    That is my deepest concern. So whatever we can do, you 
know, behind the other five parties, we should try it and we 
should do everything in our power to make it work. Mr. 
Harrison?
    Mr. Harrison. I strongly agree with you and I hope you will 
read my testimony in which I----
    Ms. Watson. I will do that.
    Mr. Harrison [continuing]. In which I say that we have to--
the danger of an escalation to a war now is growing all the 
time, and we should recognize that and do something through an 
unofficial emissary initially, and I have urged that Al Gore 
should be encouraged to go by this administration, which he 
hasn't been.
    Ms. Watson. Well, he has got something that has really 
given him a lot of prominence on the world scene, and his 
screen power and climate change and so on. I wouldn't want to 
get into this if I were him myself, but anyway, thank you so 
much for your----
    Mr. Harrison. He met Hillary Clinton on May 11, said he 
wanted to go, so he does want to go.
    Ms. Watson. Thank you so much for your responses, and thank 
you, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentlelady from California. 
While we are talking about recommendations, Mr. Harrison, I was 
thinking of Madeleine Albright as another potential person that 
could be an envoy since she spent some time there and was 
received by Kim Jong Il and his administration. She would have 
a little understanding of what happened there.
    I am going for the second round, and gentlemen, I really, 
really appreciate your patience. My good friend, the gentlelady 
from Texas has one or two more questions, just to round out our 
discussion and dialogue this morning. So, Ms. Jackson Lee?
    Ms. Jackson Lee. Mr. Chairman, you are very kind in your 
indulgence and the positive aspect of listening, even though 
members are having meetings in and out of this anteroom, is to 
get a sort of a comprehensive perspective of the gentlemen who 
are before us, and so I want to, first of all, just a moment of 
personal privilege, want to acknowledge that Mr. Snyder went to 
Rice, and that is in Houston, Texas, and so there is a bias 
there, gentlemen. Forgive me for that. I hope you enjoyed your 
stay at Rice University, and for your information, they may be 
getting a medical school, so if you want to go back to school, 
we welcome you as well.
    Let me pose these questions to Mr. Snyder and Mr. Bush. Mr. 
Bush, you were associated with the former chairman of this 
committee, of whom I had the privilege as what I would call a 
baby Member of Congress to be tutored by, Chairman Lee 
Hamilton, and of course, being on Homeland Security worked 
extensively with him on the 9-11 Commission. The first question 
is, how much fear, how much accuracy is there in the fear and 
apprehension of the present position of North Korea in terms of 
a nuclear capacity.
    Where are we? I know we are not on Armed Services, this is 
not the Intelligence Committee, but give your best judgment as 
to where you believe they are. That sort of sets the tone for 
how we proceed. Then my second question is, to make it very 
clear that I am also not advocating for war and advocating for 
negotiation, among foreign affairs, an engagement, but comment 
on the concept of six parties. Should we be open to modifying? 
Should we call for a regional meeting of North Korea, Japan and 
China, with South Korea as an advisor?
    We know that their tensions are very high there. Should we 
be open to modification, and I will have a subset so the 
chairman will be accurate in my two questions, give me your 
sense of how we divide the freeing of Ms. Ling and Ms. Lee to 
where we are today. I believe that we should have an envoy. I 
believe that the administration is committed and engaged and 
involved. We are to work collaboratively. We don't want to tip 
any iceberg or make a misstep, but we do have two incarcerated 
persons right now, and so I would appreciate some guidance. 
Whoever wants to go first. Mr. Chairman, thank you for your 
indulgence on these two questions.
    Mr. Bush?
    Mr. Bush. I will go ahead. With respect to where they are 
on the nuclear weapons, they have tested two devices, each of 
which has fairly low yield, lower than the bomb we dropped on 
Hiroshima. Their delivery systems, the missiles, can fly 
several thousand miles but not far enough to reach the United 
States.
    Ms. Jackson Lee. Not even Alaska?
    Mr. Bush. Alaska, they are getting there. With respect to 
the nuclear weapon, they have not yet, as far as anybody 
believes, miniaturized their device to the extent that it can 
be mated to a long-range ballistic missile. I think the general 
estimate is that we are years away from the point at which they 
could hit the United States with a nuclear weapon.
    Ms. Jackson Lee. And I don't want to volley, but do you 
think they want to hit somewhere else?
    Mr. Bush. No, I think they see their main security 
challenge as coming from the United States and they believe 
that having a nuclear arsenal and a means to deliver it gives 
them a deterrent that will make us think twice.
    Ms. Jackson Lee. So we have time. The main threat is us, 
they are years away, there is time.
    Mr. Bush. There is some time. I share Mr. Harrison's view 
that our allies are threatened by this looming capability if 
they can miniaturize their weapon. South Korea faces a serious 
conventional threat from a large number of artillery tubes that 
are targeted on Seoul and other places. One danger right now is 
that in this rather tense situation, someone could miscalculate 
and the situation would spin out of control. I agree 
wholeheartedly with Scott Snyder that the Six-Party Talks have 
served a very useful purpose.
    It is not fundamentally broke, so we shouldn't try and fix 
it. The main issue is North Korea's commitment to the core goal 
of the Six-Party Talks, and that is denuclearization. It 
appears that, for now, North Korea is no longer interested in 
trading its nuclear capability for a package of benefits. That 
may change once we have a new leadership in North Korea. It may 
not. So again, we have to play for time. The best outcome would 
be that after the succession, the new leadership realizes that 
the deal that is on the table in the Six-Party Talks 
effectively is a good deal for them, and they reach that before 
they are able to perfect their deterrent.
    Ms. Jackson Lee. Thank you. Any word on the young women 
posture question?
    Mr. Bush. I think that sending an envoy is a good idea. I 
think Vice President Gore is too high. Former Congressman Bill 
Richardson is very good at this, and he has relations with the 
North Korean leaders. I would prefer that we have a strong 
indication before they go that the young women are going to be 
released and that the visit is to seal the deal, not to do the 
deal.
    Ms. Jackson Lee. Thank you. Mr. Snyder?
    Mr. Snyder. I agree with everything that Richard said, 
especially about the state of the North Korea nuclear 
development effort. I might add that I believe the Joint Chiefs 
of Staff vice chairman testified on the Senate side yesterday 
suggesting that it would take at least 3 years for the North 
Koreans to be able to have a missile capacity that would reach 
the United States. One possible permutation that I began to 
explore briefly in my testimony that I think is worth continued 
consideration is whether or not and under what circumstances 
China might make a strategic shift in its posture, in such a 
way that it would be possible for the United States and China 
to have a dialogue about the future of the Peninsula.
    My own view is that the Chinese aren't there yet and that 
the signal that they will be there is when they come to see 
North Korea as their problem, not our problem. With regards to 
journalists, I think one of the critical questions that we 
have, you know, been dancing around, but I want to just state 
it explicitly, is who will the North Koreans accept as an 
envoy? Are we talking about individuals that the North Koreans 
feel that they would trust, or are there other individuals who 
might be in a position to play that role?
    In addition, I think Richard correctly suggested that if it 
is going to have some association with an official arrangement, 
then it is critical to have a signal in advance that the 
journalists would be released, but maybe there might be some 
individuals who could go on a completely unofficial basis, on a 
volunteer basis, if you will, for whom that burden wouldn't be 
present. It seems to me that it is worth also exploring those 
possible avenues or channels of interaction with the North 
Koreans as part of this process.
    Ambassador Hubbard. Mr. Chairman, could I just add one 
quick point on the issue of the two young women in North Korea? 
I think what my earlier introduction perhaps failed to 
emphasize the really crucial point that this is a humanitarian 
problem. The North Koreans need to recognize that their image 
in the world, you know, whatever their course vis-a-vis the 
United States might be, will be terribly damaged if they don't 
treat this in a humanitarian way, and I think the envoy 
selected, and I have no particular choice in mind, but the 
envoy selected should be someone who underscores the fact that 
this is a humanitarian issue, this is not an issue of 
government-to-government negotiations.
    Mr. Bush. If I could just add to that, the envoy should be 
under instructions to not talk about the nuclear issue, except 
to repeat the administration talking points, and North Korea 
should know that in advance.
    Mr. Harrison. Well, I respectfully suggest that if we 
pursue the strict separation of the fate of these two young 
women from other issues in our relations, as my colleagues have 
suggested, they are going to be in some form of detention in 
North Korea for many, many years. These issues are connected. 
We are living in the real world. We are not living in a think 
tank world. These issues are connected. They are pawns in a 
power game.
    The only way to deal with the problem of their release and 
to defuse these present tensions and to move toward bilateral 
negotiations, which we have been talking about, is for the 
administration to empower whoever goes to sound them out on a 
number of possible ways of easing present tensions, and I do 
feel that this policy of strict separation of these two issues 
is completely unrealistic and is very callous, in my view. I 
feel very deeply about the situation these two women face and I 
think we have to recognize that this can't be separated from 
the larger problems that we face.
    Ms. Jackson Lee. Mr. Chairman, you have been enormously 
gracious. We have gotten very important instruction from these 
witnesses and this hearing has a broad sweep to it. It is 
important and timely, and I just want to conclude my remarks by 
saying I am going to put on my thinking cap and I would like to 
work with you, Mr. Chairman. I think this committee can play an 
important role of being an asset or an addition to the 
deliberation on these two young women who I consider Americans 
who are now held, and to work every effort to take what these 
gentlemen have said, some have said separate it, some have said 
dispatch quickly someone that will know what we are to benefit 
from, but I hope that we will have the opportunity to pursue 
this collaboratively and be an asset to the administration on 
moving this forward, and I thank the gentleman for yielding.
    Mr. Faleomavaega. And I thank the gentlelady for her 
excellent questions and the responses that we have gotten from 
our witnesses, varied as they may be, but I think it is 
interesting. Again, I want to join the gentlelady on the 
importance of Ms. Lee and Ms. Ling's status of being imprisoned 
there in North Korea. I think they don't deserve this term of 
imprisonment for 12 years just for stepping over the line. I 
think this is something too that now we need to consider, if 
the nuclear issue and the Six-Party Talks are more important 
than the lives of these two ladies, and I appreciate Mr. 
Harrison's comment on that.
    I think you cannot separate the two, but that is my 
opinion. I can understand Mr. Bush's concerns that these two 
issues don't go together, but again, it is a matter of opinion 
and bottom line. Gentleman, all that we have done is just show 
even more how little we know about North Korea. We have made a 
lot of guesses, we have made a lot of assumptions, because it 
has really been basically guesswork, and I am looking forward 
to going to North Korea in the future if they will ever let me 
go to North Korea. But gentlemen you have been so kind and so 
patient with your time and allowing the members of both of our 
subcommittees to raise questions and concerns about the issues 
that we are now confronted with as far as North Korea is 
concerned.
    If you have any additional materials, gentlemen, that you 
want to submit for the record, we would welcome them. I am 
going to open the record for 10 days, 10 additional days--I 
think that will be helpful in making this record as complete as 
possible. Without objections, I also have a statement of Mr. 
Connolly from Virginia, his opening statement that will also be 
made part of the record. Gentlemen, again, I thank you for 
being here. I look forward to our next hearing, and again, 
thank you for your helping us with this.
    Thank you. The hearing is adjourned.
    [Whereupon, at 12:48 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Watson statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>McMahon statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
